United States Department of Agriculture
Office of Inspector General
No. 67
May 2012




Office of Inspector General

Semiannual Report to Congress
First Half
October 1, 2011 – March 31, 2012




                                          Fi s ca l Y e a r   2 012
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—
October 2011-March 2012
SUMMARY OF AUDIT ACTIVITIES	
Reports Issued	
      Number of Final Reports	                                                                     35
      Number of Fast Reports	                                                                       5
      Number of Final Report Recommendations	                                                     147
      Number of Fast Report Recommendations	                                                       28
Management Decisions Reached	
      Number of Reports	                                                                            34
      Number of Recommendations	                                                                   208
Total Dollar Impact of Reports with Management Decisions (Millions)	                          $1,169.9
      Questioned/Unsupported Costs	                                                           $1,169.1
      Funds To Be Put To Better Use	                                                              $0.8
SUMMARY OF INVESTIGATIVE ACTIVITIES	
Reports Issued	                   142
Impact of Investigations	
      Indictments	334
      Convictions	218
      Arrests	261
Total Dollar Impact (Millions)	 $48.8
Administrative Sanctions	         147

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2011)
1)	 Interagency Communications, Coordination, and Program Integration Need Improvement
	   Related material can be found on pages 1, 7, 12-13, 17-18.
2)	 Implementation of Strong, Integrated Internal Control Systems Still Needed
	   Related material can be found on pages 6, 13, 18-19.
3)	 Continuing Improvements Needed in Information Technology Security
	   Related material can be found on pages 14, 17-18, 22.
4)	 Material Control Weaknesses in Civil Rights Control Should Be Mitigated
	   No work was reported during this period.
5)	 USDA Needs to Develop a Proactive, Integrated Strategy to Increase Agricultural Commerce and Trade
	   Related material can be found on page 22.
6)	 Better Forest Service Management and Community Action Needed to Improve Forest Health and Reduce Firefighting Costs
	   Related material can be found on pages 25-27.
7)	 Improved Controls Needed for Food Safety Inspection Systems
	   Related material can be found on page 5.
8)	 Implementation of the American Recovery and Reinvestment Act of 2009
	   Related material can be found on pages 12-13, 21, 26-27.
9)	 Strengthen Efforts to Identify, Report, and Reduce Improper Payments
	   Related material can be found on pages 6-7, 12-13, 19-21.
Message from the Inspector General
I am pleased to provide the Semiannual Report to Congress (SARC) for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA), for the 6-month period ending March 31, 2012. Overall, our investigations and audits have led to significant
accomplishments during this period, including 261 arrests, 218 convictions, $48.8 million in investigative monetary results, 124
program improvement recommendations, and $1.2 billion in audit financial recommendations.
OIG continues to work extensively with the Department, Congress, and other Federal agencies to ensure the integrity and efficiency
of USDA programs, safeguard the taxpayers’ investment in these programs, and pursue those who abuse them. Additionally, during
this period, we have directed significant resources to overseeing $28 billion in American Recovery and Reinvestment Act of 2009
(Recovery Act) funds. At present, we have 32 Recovery Act audit projects in progress, and we are evaluating how well USDA
agencies are reporting the outcomes of their Recovery Act projects.
Our activities, including our Recovery Act work, are described according to our strategic goals, as outlined in the OIG Strategic Plan
for fiscal years (FY) 2010-2015:
σσ    Safety, Security, and Public Health—OIG has recently completed several investigations of those responsible for animal-
      fighting, a crime that involves a wide range of activities harmful to public health and security, such as drug trafficking and the
      illegal exchange of firearms. One of our investigations broke up a dog fight in progress in Indianapolis, Indiana, and led to 22
      individuals being charged for a variety of offenses. Of the 22 subjects charged in this case, 19 pled guilty or were convicted
      at trial. We have also recently completed an audit addressing USDA’s efforts to respond to “colony collapse disorder,” which
      affects the ability of honey bees to pollinate and thereby endangers $15 billion annually in added crop value.
σσ    Integrity of Benefits—The last 6 months have seen a major push on OIG’s part to help the Food and Nutrition Service
      (FNS) prevent fraud, waste, and abuse in the Supplemental Nutrition Assistance Program (SNAP). Our investigations have
      led to 122 convictions and $25.5 million in monetary results. OIG has also completed seven audits designed to determine if
      the States could better prevent ineligible recipients from receiving SNAP benefits. These audits found that 13,936 recipients
      of questionable eligibility were receiving an estimated $1.9 million in SNAP benefits monthly.
σσ    Management Improvement Initiatives—OIG continues to work with the Department to address longstanding weaknesses
      in USDA’s information technology (IT) security. As part of our FY 2011 Federal Information Security Management Act
      (FISMA) audit, we identified that only 6 of 33 prior year recommendations for improving the overall security of USDA’s
      systems had been sufficiently addressed by the Department. For example, we found that USDA was unable to prioritize and
      complete IT security projects, thus hindering progress towards improving USDA’s security posture. We recommended in
      FY 2009 and again in FY 2011 that the Department better prioritize its projects.
σσ    Stewardship Over Natural Resources—We completed several audits overseeing the $200 million in Recovery Act funds the
      Forest Service (FS) received to conduct wildland fire management and hazardous fuels reduction in the Nation’s forests and
      grasslands. One audit found that the Alabama Forestry Commission commingled Recovery Act funds with other funds and
      could not account for $14.4 million of the commission’s charges to its FS grants. Another audit showed that 148 of 795
      contracts for road maintenance and decommissioning, bridge maintenance and decommissioning, and related watershed
      restoration and ecosystem enhancement did not fully comply with procurement requirements, and could result in projects
      worth $63 million not being completed in compliance with Recovery Act specifications.
These accomplishments are the direct result of the dedicated work of USDA OIG professional staff, and exemplify our commitment
to ensuring the efficiency and effectiveness of the programs USDA provides. Our success is also due, in large part, to the continued
support and interest of USDA Secretary Thomas J. Vilsack, Deputy Secretary Kathleen Merrigan, as well as interested Committees
and Members of Congress.




Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Integrity of Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Management Improvement Initiatives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Stewardship Over Natural Resources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                                                                     Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                     individuals associated with illegal animal fights commit other
                                                                          crimes that threaten public safety, such as trafficking in drugs
Strengthen USDA’s ability to implement safety and                         and illegally trading firearms.
security measures to protect the public health as                         In the first half of FY 2012, we devoted 12 percent of our total
well as agricultural and Departmental resources                           direct resources to Goal 1, with 100 percent of these resources
To help USDA and the American people meet critical                        assigned to critical-risk and high-impact work. A total of 100
challenges in safety, security, and public health, OIG provides           percent of our audit recommendations under Goal 1 resulted
independent audits and investigations in these areas. Our                 in management decision within 1 year, and 47 percent of our
work addresses such issues as the ongoing challenges of                   investigative cases resulted in criminal, civil, or administrative
agricultural inspection activities, the safety of the food supply,        action. OIG issued one audit report under Goal 1 during this
and homeland security. Our work to combat animal-fighting                 reporting period. OIG’s investigations under Goal 1 yielded 42
and other animal abuse is also included under this goal.                  indictments, 51 convictions, and about $135,000 in monetary
Such activities can result in the spread of disease, and many             results during this reporting period.



  Management Challenges Addressed UNDER GOAL 1
  σσ    Interagency Communication, Coordination, and Program Integration Need Improvement (also under Goals 2 and 3)
  σσ    Improved Controls Needed for Food Safety Inspection Systems



EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                              a comprehensive survey of honey bee colony production
GOAL 1                                                                    and health. Departmental officials agreed with the need to
                                                                          complete this survey but expressed concerns about their ability
USDA Needs to Survey Losses Caused by Colony                              to fund it. (Audit Report 50099-0084-Hy, USDA’s Response
Collapse Disorder                                                         to Colony Collapse Disorder)
In response to colony collapse disorder—a disorder that                   Four Defendants Sentenced in Horse Soring
impacts honey bee pollination and endangers $15 billion                   Conspiracy
annually in added crop value—USDA led a collaboration of
Federal agencies and non-Federal entities that took action                Four individuals were convicted and sentenced during
to better understand the disorder and mitigate the damage                 this reporting period for participating in a conspiracy to
to bee colonies. OIG found that USDA’s implementation                     intentionally “sore” horses in violation of the Horse Protection
of the colony collapse disorder action plan—a plan that                   Act. “Soring” horses involves purposely injuring the hooves
involved surveying and collecting data, analyzing samples,                and legs of certain breeds of horses so they will exhibit a more
researching the causes of the disorder, and mitigating the                pronounced, high-stepping gait when they participate in horse
disorder’s effects—was adequate, but that USDA had not                    shows. Our investigation determined that these individuals
completed a comprehensive survey of bee colony losses and                 conspired to routinely sore horses when training them and also
the resulting agricultural damage. This survey is vital because,          to file false documents, forge signatures, and falsely claim to
although USDA has devoted significant resources for honey                 abide by Horse Protection Act rules in order to enter horses
bee research, the true extent of colony collapse disorder in              into shows. The central figure in the conspiracy—a horse
the United States has not been adequately assessed. We                    trainer whose prior soring activities had led to his lifetime
recommended that the Department seek adequate funding for                 suspension from showing horses in events sponsored by a
the National Agricultural Statistics Service (NASS) to conduct            major horse industry organization—enlisted the other three




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half            1
                                                                   Goal 1




individuals to claim to be the trainers and file paperwork to           that OIG agents conducted with other law enforcement
enter shows, in part so he could continue to be involved in             agencies in 2008 and 2009. Numerous other individuals
training and showing horses in spite of the ban. In the spring          have been charged in State court, some of whom are awaiting
of 2011, all four individuals were charged in U.S. District             adjudication.
Court, Eastern District of Tennessee, with multiple violations
                                                                        Indianapolis Dog-Fighting Investigation Leads to
of the Act and other crimes, including wire fraud and money
                                                                        19 Convictions
laundering. The previously suspended trainer was ordered to
be detained after he was observed in July 2011 putting bolts            After receiving information about alleged animal fighting
and blocks on horses, which was in violation of the law and his         activities in Indianapolis, Indiana, OIG agents and local
bond. In November 2011, he pled guilty to several charges,              police officers conducted a search warrant in August 2010 at a
including conspiracy to violate the Act, obstruction of justice,        residence in Indianapolis and uncovered a dog fight in progress.
witness tampering, and transporting a sore horse in violation           As a result of the warrant, 22 individuals attending the fight or
of the Act. The other three individuals each pled guilty to one         gambling on the outcome were arrested and charged in Indiana
count of conspiracy to violate the Act.                                 State court. Officers seized nine pit bulls, a dog-training
                                                                        treadmill, medical and veterinary supplies, a blood-covered,
In February 2012, the previously suspended trainer was
                                                                        dog-fighting pit in the residence’s garage, break sticks, animal
sentenced to 12 months and 1 day in prison, followed by
                                                                        carriers, heavy dog collars, chains, marijuana, and $12,967.
36 months’ probation, and fined $4,000. He was also ordered
                                                                        Of the 22 subjects charged in this case, 19 pled guilty or were
to perform community service, including participating in an
                                                                        convicted at trial; charges against 1 individual were dismissed,
educational video produced in conjunction with the USDA
                                                                        2 individuals were acquitted, and 1 individual was fined
Animal and Plant Health Inspection Service (APHIS) and the
                                                                        $500. In December 2011, the last two subjects in this case
Humane Society of the United States on methods used to sore
                                                                        were sentenced in the Marion County Court of Indianapolis,
horses, techniques for avoiding detection during inspections,
                                                                        Indiana, to 6 months’ home detention and
and the effects of soring on horses. The other three conspirators
                                                                        30 months’ probation.
were each sentenced to 12 months’ probation, fined $1,000,
and ordered to write articles describing the methods and scope          Oregon Man Sentenced to Prison for Animal-Fighting
of soring activities in the gaited horse industry and the effects       and Drug Distribution
these activities have on horses.                                        In December 2011, an Oregon man was sentenced in U.S.
Final Three Federal Defendants in Multi-State                           District Court, District of Oregon, to 70 months in prison
Dog-Fighting Investigation Sentenced to Prison                          after he pled guilty to participating in unlawful animal-
                                                                        fighting and distribution of controlled substances. In 2008,
In the SARC, First Half of FY 2010 and Second Half of FY 2010,
                                                                        this man was one of many individuals arrested as part of a
OIG reported on the investigation, prosecution, and conviction
                                                                        major investigation of an organized cockfighting group based
of individuals who were participants, trainers, owners, or
                                                                        in Oregon and Washington. As a result of the investigation,
promoters in dog fighting rings in Missouri and six other
                                                                        more than 40 individuals have pled guilty to a variety of
States. In November 2011, two brothers who participated in
                                                                        charges including cockfighting and distribution of controlled
animal-fighting activities were sentenced in U.S. District Court,
                                                                        substances. They have received sentences ranging from fines to
Southern District of Illinois, to serve 12 months and 1 day in
                                                                        14 years in prison. OIG’s investigation was conducted jointly
prison, followed by 36 months’ supervised release, and fined
                                                                        with the Drug Enforcement Administration; the Bureau of
$100. A third defendant was sentenced to serve 4 months in
                                                                        Alcohol, Tobacco, Firearms and Explosives; and other Federal,
prison, and fined $100. These three individuals were the last of
                                                                        State, and local agencies.
28 defendants to be sentenced who were charged with Federal
crimes as a result of a 15-month dog-fighting investigation




2    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 1




GOVERNMENTWIDE ACTIVITIES—GOAL 1                                           σσ   Arrowhead Counter-Terrorism Task Force. OIG
                                                                                participates in a group of regional law enforcement
Participation on Committees, Working Groups,                                    and emergency response providers, led by the FBI field
and Task Forces                                                                 office in Duluth, Minnesota, which meets monthly for
                                                                                training sessions and sharing information on various
σσ   Interagency Fraud and Risk Data Mining Group. The
                                                                                terrorist organizations, as well as related topics, such as
     OIG Data Analysis and Special Programs Division
                                                                                crisis response scenarios.
     continues to participate in this working group to hear
     from experts in the fields of data mining and risk                    σσ   Anti-Terrorism Advisory Councils. In many judicial
     analysis. The group is a collection of investigators                       districts, including the Northern District of Illinois,
     and auditors within the Federal inspector general                          the Northern and Southern Districts of Iowa, the
     community who share fraud detection and prevention                         Eastern District of Michigan, the Eastern and Western
     best practices, modeling tools, and techniques.                            Districts of Missouri, the Eastern District of North
                                                                                Carolina, and the Districts of Colorado, Kansas,
σσ   The Federal Bureau of Investigation’s (FBI) National
                                                                                Minnesota, North Dakota, and South Dakota, OIG
     Joint Terrorism Task Force. One OIG special agent is
                                                                                participates on Anti-Terrorism Advisory Councils.
     assigned full-time to the national task force and other
                                                                                These councils are umbrella organizations including
     special agents work with local task forces. While the
                                                                                local, State, and Federal agencies and private-sector
     national task force special agent attends threat briefings
                                                                                security representatives that work with the U.S.
     and provides terrorist intelligence products to OIG
                                                                                Attorney’s Offices for their geographic areas to disrupt,
     and other USDA agencies and offices, local task forces
                                                                                prevent, and prosecute terrorism through intelligence-
     work on matters that involve the investigation of both
                                                                                sharing, training, strategic planning, policy review, and
     criminal activity and intelligence gathering involving
                                                                                problem-solving.
     individuals or entities that may have connections to
     terrorist activity or may provide support for terrorist               σσ   San Bernardino Rural Crimes Task Force. OIG is one of
     activity. Overall, OIG’s participation provides an                         several law enforcement agencies participating on a task
     excellent conduit for sharing critical law enforcement                     force to combat crimes in rural areas in southeastern
     intelligence and has broadened the FBI’s and other                         California, with a special focus on animal-fighting
     law enforcement agencies’ knowledge of how to                              investigations. Other participating agencies include
     conduct criminal investigations connected to food and                      the San Bernardino County Sheriff’s Department; the
     agriculture.                                                               California Department of Food and Agriculture; Fish
                                                                                and Game; APHIS; the Food Safety and Inspection
σσ   The FBI’s Joint Interagency Agroterrorism Working
                                                                                Service (FSIS); and prosecutors from San Bernardino
     Group. OIG’s Emergency Response Team continues
                                                                                and Riverside Counties, California.
     to participate in this working group, which develops
     protocols and procedures for the FBI, APHIS, and                      σσ   Victim/Witness Task Force. OIG investigators in
     OIG to coordinate their response to agroterrorism.                         Minnesota participate on this Federal multi-agency
                                                                                group which focuses on working for and protecting
σσ   U.S. Marshals Service Fugitive Task Forces. OIG
                                                                                crime victims and witnesses in the criminal justice
     agents in Minnesota, Mississippi, and North Dakota
                                                                                process.
     participate on these task forces, which were established
     under the Presidential Threat Protection Act of 2000.                 σσ   Human Trafficking Task Force. OIG agents serve on
     The purpose of these task forces is to locate and                          another Minnesota group that works with victims
     apprehend the most dangerous fugitives and assist in                       affected by human trafficking for labor or sexual
     high-profile investigations. In addition to providing                      purposes. This group discusses issues related to both
     assistance in locating fugitives, task forces can provide                  victims and perpetrators of human trafficking crimes,
     help in serving warrants.                                                  actions being taken to combat these crimes, and cases
                                                                                which have achieved successful results.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half                3
                                                                     Goal 1




    ONGOING REVIEWS FOR GOAL 1                                                σσ    Followup on APHIS’ implementation of the Select
                                                                                    Agent Program (APHIS),
    σσ     Assessment of inspection personnel shortages in
                                                                              σσ    APHIS’ oversight of research facilities (APHIS),
           processing establishments (FSIS),
                                                                              σσ    Verifying credentials of veterinarians employed or
    σσ     Application of FSIS’ sampling protocol for testing beef
                                                                                    accredited by USDA (FSIS, APHIS),
           trim for Escherichia coli O157:H7 (FSIS),
                                                                              σσ    Implementation of the Public Health Inspection
    σσ     Review of appeals of humane handling noncompliance
                                                                                    System for domestic inspection (FSIS).
           records (FSIS),
    σσ     USDA’s controls over shell egg inspections (FSIS,
           APHIS, Agricultural Marketing Service (AMS)),                      ONGOING REVIEWS FOR GOAL 1
    σσ     Food defense verification procedures (FSIS),                       UNDER RECOVERY ACT FUNDS
    σσ     Escherichia coli testing of boxed beef (FSIS),                     σσ    Rehabilitation of flood control dams—phase 2
                                                                                    (Natural Resources Conservation Service (NRCS)).
    σσ     Inspection and enforcement activities at swine
           slaughterhouses (FSIS),                                            OIG’s annual plan for future audit and investigative work
    σσ     Effectiveness of the Smuggling, Interdiction, and Trade            under this goal may be found online at http://www.usda.gov/
           Compliance Unit (APHIS),                                           oig/webdocs/2012ABPFinal.pdf.




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                ongoing, and 2 scheduled to begin during the remainder of
                                                                     FY 2012. Many of our remaining projects review how USDA
Reduce program vulnerabilities and strengthen                        is reporting the results of its Recovery Act projects, especially
program integrity in the delivery of benefits to                     the number of jobs created or saved.
program participants                                                 OIG continues to work closely with the Recovery Board and
OIG conducts audits and investigations to ensure or restore          other Inspector General offices to coordinate analytical and
integrity in the various benefit and entitlement programs of         investigative work of potential Recovery Act fraud. Since the
USDA, including a variety of programs that provide payments          passage of the Recovery Act in 2009, we have received over
directly and indirectly to individuals or entities. Some of these    100 allegations of misuse of Recovery Act funds. We continue
programs involve significant amounts of Federal funds: SNAP          to assess the validity of the allegations and, when appropriate,
alone accounted for approximately $72 billion in FY 2011             initiate criminal investigations. As of this reporting period, we
benefits, while well over $18 billion annually is spent on USDA      have several ongoing investigations involving potential misuse
farm programs. Intended beneficiaries of these programs              of Recovery Act funds.
include the working poor, hurricane and other disaster victims,      In the first half of FY 2012, we devoted 49 percent of our
and schoolchildren, as well as farmers and ranchers. These           total direct resources to Goal 2, with 97 percent of these
programs support nutrition, farm production, and rural               resources assigned to critical/high-impact work. A total of 93
development.                                                         percent of our audit recommendations under Goal 2 resulted
Under the Recovery Act, USDA received about $28 billion              in management decision within 1 year, and 72 percent of our
in funding for programs in a number of areas, including farm         investigative cases resulted in criminal, civil, or administrative
loans, watershed programs, supplemental nutrition assistance,        action. OIG issued 15 audit reports under Goal 2 during this
wildland fire management, and several rural development              reporting period. OIG’s investigations under Goal 2 yielded
programs (such as rural housing, rural business, water and           283 indictments, 151 convictions, and about $31.9 million in
waste disposal, and broadband). The Recovery Act also                monetary results during this reporting period.
provided OIG with $22.5 million (to remain available until
December 31, 2012) for “oversight and audit of programs,
grants, and activities funded by this Act and administered by            Management Challenges Addressed UNDER GOAL 2
the Department of Agriculture.”
                                                                         σσ   Interagency Communication, Coordination, and
Since the Recovery Act was enacted, OIG has been working                      Program Integration Need Improvement (also under
with USDA and the Inspector General community, as well                        Goals 1 and 3)
as the Government Accountability Office and the Recovery                 σσ   Strong, Integrated Internal Control Systems Still Needed
Accountability and Transparency Board (Recovery Board), to                    (also under Goals 3 and 4)
carry out oversight responsibilities. Our Recovery Act oversight         σσ   Information Technology Security Needs Continuing
plan includes proactive, short-term, and long-term audit and                  Improvement (also under Goal 3)
investigative work. It can be found on our website at http://            σσ   The American Recovery and Reinvestment Act of 2009
www.usda.gov/oig/recovery/OIGSTIMULUSPLAN.pdf.                                Needs to be Effectively Implemented (also under Goals
As Recovery Act funding for USDA programs, and the                            3 and 4)
additional oversight funds for OIG, is winding down in 2012,             σσ   Efforts to Identify, Report, and Reduce Improper
we are concluding the remaining projects we have underway.                    Payments Need to be Strengthened (also under Goal 3)
At present, we have 32 Recovery Act projects currently




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half             5
                                                                 Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                          comprehensively check for missing files prior to archival, and
GOAL 2                                                                establish standard naming and organization conventions to
                                                                      differentiate the most recent and accurate data. FNS agreed
AMS Needs to Ensure that Organic Milk Meets                           and has begun taking steps to strengthen system controls.
Standards                                                             (Audit Report 27002-0001-DA, Analysis of Supplemental
AMS operates the National Organic Program to develop,                 Nutrition Assistance Program Anti-Fraud Locator EBT Retailer
implement, and administer national standards governing                Transactions Database)
the marketing of organic agricultural products and to assure          FNS Needs to Ensure That SNAP Benefits Are
consumers that such products meet consistent standards.               Reaching Only Eligible Recipients
Based on our review of how milk is labeled as organic, OIG
determined that AMS can take steps to better ensure that              As part of our ongoing efforts to help minimize fraud, waste,
consumers who choose to pay a premium for organic milk                and abuse within SNAP, OIG is performing a series of audits
are receiving the high-quality product they wish to purchase.         analyzing 10 States’ participant databases. State agencies are
Specifically, the National Organic Program needs to conduct           required to check their information against Federal and State
an analysis of methods for detecting genetically modified             databases to ensure, for example, that people using deceased
(GM) material in order to determine if guidance is needed             individuals’ social security numbers do not receive benefits, or
regarding the detection of GM feed and forage; provide greater        that their submitted income is the same as is listed in official
transparency in its yearly list of USDA-certified organic             records.
operations; ensure that certifying agents (the organizations          To date, we have finalized work in 7 of 10 States—Alabama,
that verify production and handling practices meet established        Florida, Kansas, Louisiana, Mississippi, Missouri, and Texas—
organic standards) are adequately addressing milk transporter         and found a total of 13,936 recipients who were receiving
responsibilities in organic system plans; and develop guidance        potential improper payments totaling about $1.9 million,
for certifying agents to use when conducting unannounced              monthly:
inspections. By taking these actions, AMS can promote greater
confidence that milk labeled as “USDA Organic” meets the                                Recipients/Households       Estimated Benefits
standards consumers expect. AMS generally agreed with                                        Questioned                 per Month
our findings and recommendations. (Audit Report 01601-
                                                                          Alabama               1,639                     $207,989
0001-Te, Agricultural Marketing Service: National Organic
Program—Organic Milk)                                                     Florida               2,689                     $380,225

FNS Needs to Ensure That Its Anti-Fraud Database Is                       Kansas                  883                     $109,845
Complete and Well Organized                                               Louisiana             2,374                     $303,273
To search for signs of fraud, waste, and abuse within
                                                                          Mississippi           1,009                     $123,643
SNAP, FNS tracks SNAP electronic benefits transfer (EBT)
transactions, using the Anti-Fraud Locator EBT Retailer                   Missouri              1,246                     $229,083
Transactions (ALERT) system. We reviewed complete EBT
                                                                          Texas                 4,096                     $523,551
transaction files used to populate FNS’ ALERT system, and
found that while most files were present, they were incomplete            TOTAL                13,936                   $1.9 million
and disorganized. Specifically, of the 19,345 files from 53
States and territories, FNS was unaware that 75 files from
                                                                      Taken within the context of SNAP as a whole, our findings to
18 States were missing. We also found duplicate files, and
                                                                      date do not represent large monetary sums (they represent only
different files with the same names. This occurred because,
                                                                      0.1 percent to 0.3 percent of the total SNAP payments in the
although FNS backs up its EBT transaction files regularly, the
                                                                      seven States involved). They do, however, show areas where
agency did not have processes in place to check for missing
                                                                      FNS and the States could make progress in reducing potential
data or to consistently manage multiple versions of files. We
                                                                      improper payments.
recommended that FNS establish documented procedures to




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 2




In our reports, we recommended that FNS require the States to          additional review. FNS concurred with our recommendations.
ensure they use a national database to perform death matches           (Audit Report 27099-0001-DA, Food and Nutrition Service
and social security number verifications, and that they perform        Identifying Areas of Risk in the Child and Adult Care Food
checks to make sure information is entered correctly. We also          Program Using Automated Data Analysis Tools)
recommended that the State agencies review the individuals’
                                                                       Michigan Mortgage Firm Will Pay Government $6.2
records we identified and recover improper payments, as
                                                                       Million as Employees Are Sentenced for Fraud
appropriate. Generally, FNS agreed. (Audit Report 27002-
0004-13, Analysis of Alabama’s Supplemental Nutrition                  As we reported in the SARC, First Half of FY 2011, an OIG
Assistance Program Eligibility Data; Audit Report 27002-0002-          investigation found that a mortgage company and its employees
13, Analysis of Florida’s Supplemental Nutrition Assistance            in Michigan committed a multi-million dollar fraud against the
Program Eligibility Data; Audit Report 27002-0001-13,                  Rural Housing Service’s (RHS) guaranteed single family home
Analysis of Kansas’ Supplemental Nutrition Assistance Program          loan program by routinely submitting falsified loan applications
Eligibility Data; Audit Report 27002-0003-13, Analysis                 that included false income certifications, forged application
of Louisiana’s Supplemental Nutrition Assistance Program               signatures, and fraudulent payment records. We found that
Eligibility Data; Audit Report 27002-0005-13, Analysis of              a branch manager of the mortgage firm, his brother, and the
Mississippi’s Supplemental Nutrition Assistance Program                employees they supervised originated 271 RHS guaranteed
Eligibility Data; Audit Report 27002-0007-13, Analysis                 single family home loans between 2001 and 2003, valued at
of Missouri’s Supplemental Nutrition Assistance Program                over $38 million, based on fraudulent applications. As a result,
Eligibility Data; and Audit Report 27002-0006-13, Analysis of          RHS guaranteed at least $6.1 million in mortgage loans based
Texas’ Supplemental Nutrition Assistance Program Eligibility           on false information and has lost at least $1.5 million to date
Data)                                                                  when ineligible buyers defaulted on the loans.

FNS Needs to Improve its Monitoring of Meal Counts                     In December 2011, in U.S. District Court, Eastern District
in the Child and Adult Care Food Program (CACFP)                       of Michigan, the former branch manager was sentenced
                                                                       to 18 months’ incarceration, ordered to pay $1 million in
FNS’ CACFP provides nutritious meals and snacks to
                                                                       restitution to Rural Development (RD)—with $50,000 due
participants in daycare institutions, such as childcare centers,
                                                                       immediately—and fined $20,000. The manager’s brother was
daycare homes, and adult daycare centers. These CACFP
                                                                       sentenced to 12 months and 1 day in prison and was ordered
sites are reimbursed based on the number of eligible meals
                                                                       to pay $570,732 in restitution. Also in December 2011, a civil
and snacks served to children and adults, so the meal counts
                                                                       settlement was filed in which the mortgage company agreed to
they provide to their respective States are a critical part of how
                                                                       pay $6.2 million to RD and the U.S. Department of Justice.
CACFP operates. Based on our visits to 56 high-risk sites in
                                                                       As previously reported, two subordinate employees pled
Florida and Michigan, we found that one third of the sites
                                                                       guilty in March 2010 to theft of Government funds, and were
visited were historically claiming more meals than we observed
                                                                       each sentenced to 24 months’ probation and ordered to pay
during our visits. These problems occurred because FNS and
                                                                       restitution of $654,000 and $206,475, respectively.
the States rely largely on the monitors’ limited reviews to ensure
that the sites are reporting accurate meal claims and complying        Rural Business-Cooperative Service (RBS)
with FNS program requirements. However, the monitors do                Guaranteed Loan Conspiracy Results in Prison
not fully utilize data analysis to target higher risk sites, and       Sentences and Millions in Restitution
there are also weaknesses concerning the timing of reviews and         An OIG investigation found that multiple individuals
the consistency of analysis performed during monitoring visits.        participated in a scheme to inflate the value of live catfish
We recommended that FNS and the States work with States’               inventory and other property on a Mississippi catfish farm
program sponsors to improve their monitoring techniques to             so that a Mississippi man could fraudulently obtain a $9.5
ensure site visits occur throughout the month, use consistent,         million RBS Business and Industry (B&I) guaranteed loan
standardized guidance, and develop inexpensive, readily                for the purpose of purchasing the farm. The loan exceeded
available data analysis tools to identify higher risk sites for        the true value of the property by several million dollars. The




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half          7
                                                                   Goal 2




investigation also led to charges against other conspirators,           managed apartment complexes was sentenced to 89 months in
including the seller of the property, the buyer’s attorney,             prison, followed by 60 months’ supervised release, and was ordered
the appraiser, a business consultant, a farm manager, and a             to pay $507,000 in restitution. Our investigation disclosed that
former RD official. In October 2011, in U.S. District Court,            this woman embezzled over $390,000 from the company by
Northern District of Mississippi, the borrower who obtained             transferring money out of business bank accounts, altering business
the RBS loan was sentenced to serve 60 months in prison and             bank records to conceal the theft, and fraudulently obtaining and
was ordered to pay $18,000 in restitution. Also in October              using a business credit card for her personal use. The company
2011, a corporation owned by the man who sold the farm                  oversaw the management and maintenance of apartment
entered a corporate guilty plea to one count of conspiracy              complexes throughout Mississippi, including 11 complexes which
and agreed to pay restitution of $4.3 million over 6 years.             were constructed under RHS’ Multi-Family Housing Program. Of
That same month, the former farm manager pled guilty to                 the $390,000 stolen, $70,000 were Federal funds held as security
conspiracy, and the former RD official entered into a pretrial          by RD for the Multi-Housing Program loan. The woman was
diversion program for 12 months and agreed to pay $10,000               charged in June 2011 with two counts of bank fraud, one count of
in restitution. As we reported in the SARC, 1st Half of 2003,           theft of public money, and one count of aggravated identity theft.
the consultant and the farm appraiser pled guilty to violations         She pled guilty in October 2011 to one count of bank fraud and
including conspiracy, bribery, and false statements. The                one count of aggravated identity theft.
consultant was sentenced to 20 months in prison and was
                                                                        Maine Couple Sentenced for Hiding Income and
ordered to pay restitution of nearly $5.9 million. The appraiser
                                                                        Marital Status to Obtain RHS Rental Assistance and
was sentenced to serve 6 months of home confinement and was
fined $10,000.
                                                                        Other Federal Benefits
                                                                        In November 2011, in U.S. District Court, District of Maine,
Four Individuals Guilty of Fraud Involving Rural                        a husband and wife were each sentenced to 60 months of
Hospital in Mississippi                                                 supervised probation and ordered to pay restitution of $53,181
In November 2005, RD guaranteed a $27.3 million loan to                 and $64,106, respectively, for filing false information in order
a group of physicians to purchase a hospital owned by the               to receive unauthorized RHS rental assistance payments and
city and the county where it was located. However, in 2007              other Federal benefits. Our investigation determined that,
the hospital went into default, and bankruptcy was filed. In            from June 2003 through October 2008, the couple conspired
September 2009, RD sold the hospital at an $18 million loss.            to defraud RHS by failing to report Supplemental Security
An investigation found that key individuals involved in the             Income payments which the wife received from the Social
purchase and operation of the hospital had engaged in bribery,          Security Administration. In addition, they also conspired to
kickbacks, embezzlement, healthcare fraud, and false statements,        misrepresent their marital status for a number of years so that
which directly contributed to the default. As a result of our           the woman could receive Supplemental Security Income and
investigation, five individuals were charged in U.S. District           SNAP benefits to which she was not entitled.
Court, Northern District of Mississippi, with a variety of
                                                                        Northern California Businessman Commits Fraud to
offenses including making false statements, mail fraud, theft,
bribery, embezzlement, and health care fraud. One physician
                                                                        Obtain Farm Service Agency (FSA) Loans
and a former county administrator pled guilty to charges of mail        In December 2011, in U.S. District Court, Northern District
fraud, theft, and bribery. In March 2012, a Federal jury found          of California, a businessman was sentenced for submitting false
two other defendants guilty of multiple offenses, including             statements on several FSA loan applications and making false
embezzlement, kickbacks, and lying to investigators. The fifth          representations to a bank. He was ordered to serve 50 months
defendant was indicted but died before further action was taken.        in prison, followed by 60 months of supervised released, and
                                                                        ordered to pay a total of $800,000 in restitution to FSA and the
Mississippi Woman Sentenced for Embezzling from                         bank he defrauded. The man submitted the false information
RHS Apartment Complexes and Other Businesses                            on behalf of a company he controlled to obtain FSA loans and
In March 2012, in U.S. District Court, Southern District of             a line of credit from the bank. In December 2010, he was
Mississippi, a woman who embezzled funds from a company that            charged with making a false statement to a Government agency,




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                   Goal 2




bank fraud, and aggravated identity theft. He pled guilty in            During this reporting period, in U.S. District Court, Eastern
July 2011 to the first two charges.                                     District of North Carolina, a sentence was handed down
                                                                        against a man who facilitated the cashing of the fraudulent
Mississippi Farmer Convicted at Trial of Conspiracy
                                                                        tobacco checks. In November 2011, a man who physically
and Conversion of Mortgaged Property
                                                                        cashed the nominee checks and then distributed payments to
In October 2011, in U.S. District Court, Northern District of           the co-conspirators was sentenced to 60 months of probation,
Mississippi, a farmer was sentenced to 60 months’ probation             with the first 24 months under house arrest, and was fined
and ordered to pay $315,559 in restitution to FSA for violations        $75,000 for his role in the conspiracy. The owner of a grocery
involving a Commodity Credit Corporation (CCC) loan. Our                store, who cashed approximately $3.9 million of the fraudulent
investigation disclosed that the farmer conspired with others           tobacco checks, was previously sentenced to 60 months of
to fraudulently apply for and receive a CCC rice loan in the            probation and forfeited $214,500 in criminal proceeds.
amount of $173,592. The rice, which was security for the loan,
was subsequently sold and the funds were converted to the
                                                                        Illinois Farmer Sentenced for Bankruptcy Fraud and
farmer’s personal use. The farmer was charged with conspiracy           Money Laundering
and conversion of mortgaged property in January 2010, and               In August 2010, the Internal Revenue Service (IRS) arrested
was found guilty by a jury in March 2011. The farmer’s                  an Illinois farmer for bankruptcy fraud and money laundering
co-conspirators died before charges could be filed against them.        because he used the names of shell companies to sell corn and
                                                                        avoid liens that banks held against his assets. After his arrest,
Farmer Conceals Sale of FSA Collateral by Selling
                                                                        the Risk Management Agency (RMA) and OIG conducted a
Livestock Using Family Members’ Names
                                                                        joint investigation into his activities. We determined that the
In November 2011, in U.S. District Court, Eastern District of           farmer underreported his crop production in 2009 and 2010,
Oklahoma, a farmer was sentenced to 48 months’ probation,               thus defrauding the Government of more than $500,000. The
including 6 months’ home detention, and was ordered to pay              farmer pled guilty in U.S. District Court, Central District
$69,821 in restitution to FSA for conversion of mortgaged               of Illinois, to money laundering and bankruptcy fraud. In
property. Our investigation found that he disposed of                   February 2012, he was sentenced to 51 months in Federal
$300,000 in livestock mortgaged to FSA without obtaining                prison and ordered to pay restitution totaling $1.8 million
authorization and failed to use the proceeds to repay his FSA           to a private bank and to his father. The farmer also accepted
debt. From February 2006 through May 2009, the farmer used              a debarment agreement under which he will be voluntarily
the names of family members to sell approximately $186,000              disqualified from all USDA programs for 5 years.
of pledged livestock without FSA’s approval.
                                                                        New York Non-Profit Organization Chief Executive
North Carolina Residents Sentenced for Tobacco                          Officer (CEO) Sentenced for Forging FSA Employee’s
Insurance Fraud                                                         Signature in Loan Fraud Scheme
In a spin-off to an investigation we conducted in North                 As reported in the SARC, Second Half of FY 2011, the CEO of
Carolina, OIG and the Internal Revenue Service-Criminal                 a New York non-profit organization was found guilty of two
Investigation (IRS-CI) determined that, from 2006 to 2008,              counts of wire fraud in U.S. District Court, Southern District
multiple people in North Carolina conspired to defraud                  of New York in July 2011. Our investigation revealed that he
crop insurance companies of approximately $3.9 million by               forged the signature of an FSA employee on a fraudulent grant
filing false loss claims that were ultimately reimbursed by             agreement and attempted to use the fraudulent document to
USDA. Several tobacco farmers, a tobacco warehouseman,                  obtain loans from two financial institutions. In October 2011,
and a grocery store owner participated in a scheme in which             the CEO was sentenced to 13 years and 6 months in prison, to
tobacco brokers and other buyers issued checks in the names of          be followed by 3 years’ supervised release, and ordered to pay
nominee payees, rather than the actual tobacco producers, so            a special assessment of $200. This investigation was worked
that the sales proceeds could be hidden and the farmers could           jointly with the U.S. Secret Service.
file false insurance claims on purportedly failed tobacco crops.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half         9
                                                                      Goal 2




SNAP TRAFFICKING                                                                of Health and Human Services. The family operated a small
                                                                                grocery store that our investigation determined trafficked
A significant portion of OIG’s investigative resources are                      approximately $470,000 in SNAP benefits from December
dedicated to ensuring the integrity of SNAP by combating the                    2008 through July 2009. During the same time period,
practice of exchanging benefits for cash, which is known as                     the owners moved approximately $100,000 to Somalia
“trafficking.” In the first half of FY 2012, OIG has concluded                  by operating an illegal money remittance business. The
the following SNAP-related investigations and prosecutions:                     investigation further determined that, from 2006 through
                                                                                2009, the family members personally received approximately
σσ    Stores in New York Charged With SNAP Trafficking and
                                                                                $120,000 from SNAP, the Special Supplemental Nutrition
      Money Laundering—Working jointly with Federal, State,
                                                                                Program for Women, Infants, and Children (WIC), and
      and local authorities, OIG investigators found that
                                                                                Medicaid; $44,000 in housing assistance; and $24,000 in
      10 stores in the Utica and Rochester, New York, areas
                                                                                Pell grants. However, the income generated by the store
      illegally redeemed more than $4 million in SNAP benefits
                                                                                made them ineligible to participate in these programs. In
      from 2008 through 2010. As a result of these investigations,
                                                                                February 2012, the three individuals were sentenced in U.S.
      two store owners and an employee of one of the stores in
                                                                                District Court, Western District of Michigan, to prison
      Rochester were arrested and charged with trafficking in
                                                                                terms ranging from 8 months to 84 months and ordered
      U.S. District Court, Western District of New York. The
                                                                                to pay restitution of $658,636. This investigation was
      employee pled guilty and, in January 2012, was sentenced
                                                                                coordinated with OIG agents from the U.S. Department
      to 60 months of probation and ordered to pay restitution of
                                                                                of Education, the U.S. Department of Health and Human
      $84,243. Sentencing is pending for the owners of the store.
                                                                                Services, and the U.S. Department of Housing and Urban
σσ    Two South Carolina Convenience Stores Exchanged                           Development.
      SNAP Benefits for Cash, Cigarettes, and Clothing—An
                                                                           σσ   Owner and Employees of Detroit Store Trafficked
      OIG investigation resulting from escalation of a USDA
                                                                                SNAP Benefits for Cash, Prescription Drugs, and Illegal
      FNS retailer investigations case and an FNS referral,
                                                                                Items—In October 2011, in U.S. District Court, Eastern
      and conducted jointly with the Richland County, South
                                                                                District of Michigan, a Detroit store owner was sentenced
      Carolina, Sheriff’s Office, and IRS-CI, found that between
                                                                                to serve 30 months of incarceration and was ordered to pay
      January 2009 and October 2011 two convenience stores
                                                                                restitution of $141,672 as a result of our investigation into
      owned by a man and his nephew illegally exchanged more
                                                                                SNAP trafficking at his store. Our investigation disclosed
      than $4 million in SNAP benefits for cash and ineligible
                                                                                that the owner and his employees regularly exchanged SNAP
      products, such as cigarettes and clothing. Both store
                                                                                benefits for cash and ineligible items including prescription
      owners, as well as two employees, have been charged with
                                                                                drugs and non-food products. In December 2010, the
      and pled guilty to Federal trafficking violations in U.S.
                                                                                two employees each pled guilty to one count of wire fraud
      District Court, District of South Carolina. In February
                                                                                and were sentenced in April 2011 to serve 36 months of
      2012, one of the store owners was sentenced to 41 months
                                                                                supervised release; one was ordered to pay restitution of
      in prison and was ordered to pay $2.3 million in restitution,
                                                                                $129,867, the other $37,803. In February 2011, the store
      while one of the employees was sentenced to 5 years’
                                                                                owner was charged with SNAP fraud and being a felon
      supervised probation, including 8 months of electronic
                                                                                in possession of a firearm; he pled guilty to both charges
      monitoring. In March 2012, the other store owner was
                                                                                that same month. We conducted this investigation in
      sentenced to 60 months in prison and ordered to pay
                                                                                conjunction with the Michigan State Police as members of
      $1.6 million in restitution. Another employee was
                                                                                an ongoing task force called the Bridge Card Enforcement
      sentenced to 18 months in prison.
                                                                                Team.
σσ    Owners of Michigan Grocery Store Sentenced for
                                                                           σσ   Lansing Store Owners and Employees Sentenced to
      Multiple Crimes, Including SNAP Trafficking and
                                                                                Lengthy Prison Terms for Exchanging SNAP Benefits
      Illegally Transmitting Funds to Somalia—A multi-agency
                                                                                for Cash, Narcotics, and Firearms—In October and
      investigation in Grand Rapids, Michigan, resulted in
                                                                                November 2011, in U.S. District Court, Western District
      lengthy prison terms for three family members engaged in
                                                                                of Michigan, two owners and three employees of a small
      SNAP fraud, as well as fraud involving U.S. Department
                                                                                convenience store in Lansing were sentenced to prison
      of Housing and Urban Development programs, the
                                                                                terms ranging from 18 months to more than 16 years and
      U.S. Department of Education Pell Grant program, and
                                                                                were ordered to pay restitution ranging from $215,868
      assistance programs administered by the U.S. Department




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                    Goal 2




     to $496,089. Our investigation determined that these                σσ   Washington Store Owner and Associate Sentenced
     individuals were illegally accepting SNAP benefits in                    to Prison for Defrauding SNAP of $2 Million—In
     exchange for cash and narcotics, including heroin, cocaine,              December 2011, in U.S. District Court, Western District of
     and marijuana. In some cases, they also accepted SNAP                    Washington, a Seattle store owner was sentenced to
     benefits in exchange for firearms. In May 2011, the owners               21 months in Federal prison and was ordered to pay nearly
     and three employees were charged with a variety of crimes,               $1.5 million in restitution. The owner was also ordered
     including conspiracy; SNAP fraud; distribution of cocaine,               to forfeit two vehicles and $133,538 in cash that was
     heroin, and marijuana; and possession of a firearm by a                  seized from her bank account. During the course of our
     convicted felon. All subjects subsequently pled guilty. This             investigation, we learned that the store owner exchanged
     investigation was conducted jointly with IRS-CI and the                  more than $2 million in SNAP benefits for cash and used
     Lansing Police Department’s Special Operation Division.                  “runners” to bring SNAP recipients to the store to make
σσ   Owners of a Store in Wichita, Kansas, Sentenced in                       the illegal transactions. The owner was charged and pled
     SNAP Conspiracy—In December 2011, in U.S. District                       guilty in March 2011 to one felony count of the unlawful
     Court, District of Kansas, a husband and wife were                       use of food benefits; her main “runner” was sentenced in
     sentenced to Federal prison terms of 18 months and 6                     November 2011 to 18 months in Federal prison and was
     months, respectively, for trafficking in SNAP benefits at                ordered to pay $400,000 in restitution. The store has been
     their Wichita grocery store. The couple was also ordered                 permanently disqualified from participating in SNAP.
     to pay $450,000 in restitution and will forfeit $187,100            σσ   SNAP Recipient Stole Another’s Identity to Fraudulently
     that was seized during the investigation. Beginning in July              Obtain Benefits—In February 2012, in U.S. District
     2010, the store owners conspired in a SNAP trafficking                   Court, District of Maine, a SNAP recipient was sentenced
     scheme with a third individual, a “runner,” who collected                to 42 months in prison and was ordered to pay $198,819
     EBT cards from SNAP recipients at a homeless shelter and                 in restitution for a variety of crimes, including the theft of
     elsewhere, and brought the cards to the store to exchange                Federal housing assistance, student aid, health care benefits,
     benefits for a discounted amount of cash. The runner has                 nutrition assistance, passport fraud, Social Security fraud,
     pled guilty to conspiracy to defraud and was ordered to pay              and aggravated identity theft. A joint Federal and State
     $20,000 in restitution. Additionally, four SNAP recipients               investigation found that, over the past 25 years, this man
     who sold benefits at the grocery store were convicted of                 assumed the identity of a U.S. citizen and used the victim’s
     fraud and sentenced to supervised release and restitution.               identity to fraudulently obtain three U.S. passports, a social
     Some SNAP recipients have been disqualified from receiving               security number, and $198,819 in Government education,
     benefits for a time, and OIG is working with the State of                housing, health care, and SNAP benefits. This investigation
     Kansas to disqualify additional SNAP recipients who were                 was conducted jointly with the FBI; the U.S. Department of
     not charged criminally. The store has been disqualified from             State-Bureau of Diplomatic Security; the U.S. Immigration
     participating in SNAP and was assessed an administrative                 and Customs Enforcement; the Maine Department of
     penalty of more than $100,000.                                           Health and Human Services; and the Inspectors General of
σσ   South Texas Store Owner and Two Employees Sentenced                      the Social Security Administration, the U.S. Department of
     for $3.1 Million in SNAP Trafficking—In January                          Housing and Urban Development, the U.S. Department of
     2012, in U.S. District Court, Southern District of Texas, a              Health and Human Services, and the U.S. Department of
     Brownsville supermarket owner was sentenced to 46 months                 Education.
     in prison and was ordered to pay $2.5 million in restitution        σσ   Montana SNAP Recipient Sentenced for Falsifying
     for conspiring to illegally exchange SNAP benefits at his                Income on SNAP Application—In December 2011, a
     supermarket. Two employees were previously sentenced to                  Montana SNAP recipient was sentenced to 6 months of
     12 months’ probation and ordered to pay $500 fines. The                  incarceration and ordered to pay $15,582 in restitution
     subjects were also operating an unlicensed money service                 after OIG found that the man failed to report his income
     business known as a “hawala,” an informal transfer system                when he applied for SNAP benefits and caused a loss to
     that enables individuals to send remittances overseas even               the Government of about $16,000. In June 2011, he was
     though money does not pass through the banking system.                   charged in U.S. District Court, District of Montana, with
     SNAP recipients who sold their benefits to the store are                 theft of Federal property by fraud, Federal welfare fraud,
     being prosecuted by local authorities.                                   and witness tampering. He pled guilty to theft of Federal
                                                                              property by fraud in August 2011.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half          11
                                                                    Goal 2




σσ    Mississippi Woman Sentenced to Prison for Making False             by either $100 or $200. We estimate that she defrauded the
      Statements about Drug Conviction to Obtain SNAP                    WIC program of $133,493. Three banks also suffered losses of
      Benefits—In November 2011, in U.S. District Court,                 $8,355 as a result of paying the inflated amounts on the altered
      Southern District of Mississippi, a woman was sentenced            WIC vouchers to the woman’s bank accounts. The woman was
      to 36 months of incarceration and was ordered to pay               charged and pled guilty in June 2011.
      $4,367 in restitution for making false statements to receive
      SNAP benefits. We found she falsely claimed that she had
      not been convicted of a felony drug offense since August
                                                                         RECOVERY ACT REVIEWS
      1996, when legislation took effect prohibiting anyone with         RD Needs to Improve Its Controls Over the Loan
      such a felony conviction from receiving SNAP benefits. She
                                                                         Making Process for the B&I Guaranteed Loan
      was charged in January 2011 with fraudulently obtaining
                                                                         Program
      SNAP benefits and pled guilty in July 2011.
                                                                         The Recovery Act provided RD $130 million in budget
New York Distributor Found Guilty of Buying Infant
                                                                         authority for its B&I Guaranteed Loan Program. With the
Formula Stolen in Georgia
                                                                         resulting lending level of approximately $1.6 billion, RD
In the SARC, First Half of FY 2008, OIG reported that two                guaranteed B&I loans in rural communities to bolster the
criminal organizations were involved in the large-scale theft            existing credit structure in these communities and provide
of infant formula and razors in the Atlanta metropolitan                 lasting community benefits. We found, based on our
area. The stolen goods, valued at approximately $6 million,              analysis of 55 statistically sampled loans, that RD assigned
were transported in rental trucks to a distributor in Brooklyn,          incorrect priority rankings to 68 percent of the applications,
New York, which arranged for their sale. In August 2010, the             and reviewed 65 percent of the requests inadequately. The
distributor and an employee of the company were charged                  agency awarded higher priority to some loans erroneously
in U.S. District Court, Northern District of Georgia, with               and impaired its ability to identify potentially marginal or
conspiracy and the transportation of stolen goods. In October            substandard loans before approval, which would result in
2011, the distributor was found guilty of all charges during             higher financial obligations if the borrowers default. We also
a bench trial; the company was sentenced in February                     determined that, as a result of inadequate reviews, RD awarded
2012 to 60 months of probation, ordered to pay $6.7 million              guarantees to at least two loans that do not fully comply with
in restitution to various retail stores victimized by the thefts,        eligibility regulations, and obligated at least $6.2 million that
and fined $50,000. The employee pled guilty and was                      should not have been approved. We recommended that the
sentenced in February 2012 to 37 months in prison and was                agency improve instructions and provide training in support of
ordered to pay $931,250 in restitution jointly and severally             those instructions, so that it can operate the B&I Guaranteed
with the distributor.                                                    Loan Program more effectively. RD generally agreed with our
Arkansas Woman Sentenced to Prison for Making                            recommendations. (Audit Report 34703-0002-Te, Recovery
                                                                         Act—Rural Development—Business and Industry Guaranteed
False Statements to FNS and the Social Security
                                                                         Loans—Phase 2)
Administration
In October 2011, in U.S. District Court, Western District                FNS Needs to Improve How States Detect Fraud in
of Arkansas, a Fort Smith woman was sentenced to serve                   SNAP
24 months in prison and was ordered to pay a total of                    As part of the Recovery Act, Congress authorized increasing
$200,830 in restitution for committing fraud against WIC,                SNAP benefits by 13.6 percent. The Act also provided $290.5
the Social Security Administration, and three banks. Our                 million in funding for State administrative expenses to handle
investigation determined that, from December 2006 to                     the anticipated increase in SNAP caseloads. OIG found two
December 2007, the woman willfully altered approximately                 issues related to the States’ fraud detection efforts. First, FNS
950 WIC vouchers she redeemed for legitimately purchased                 did not require the States to use the management reports
food items by adding either a 1 or a 2 in front of the value of          provided by their EBT processor; thus, neither State we visited
the dollar amount, thus inflating the value of each voucher              was using these reports to identify potentially fraudulent




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 2




activities by SNAP recipients for investigation or other               FSA Ensured the Eligibility of Producers Participating
followup. In the course of our audit, we identified more than          in the Supplemental Revenue Assistance Payments
2,600 questionable transactions using these reports, totaling          Program
over $181,700 for 1 month. Second, FNS did not establish an
                                                                       Since the Recovery Act increased assistance levels and expanded
effective review process to periodically assess the States’ fraud
                                                                       participation in FSA’s Supplemental Revenue Assistance
detection efforts. Instead, FNS relied upon the information
                                                                       Payments Program, OIG reviewed the eligibility of the
collected by the States and reported in FNS’ annual State
                                                                       producers enrolled in the program. Based on our review of a
Activity Report, which we found to be of questionable accuracy.
                                                                       statistical sample of producers, we found that the producers
By addressing these concerns, FNS will improve the control
                                                                       were eligible and that FSA issued payments for qualified losses.
environment for assessing the States’ fraud detection efforts
                                                                       We did find, however, that 35 out of the 125 producers’ files
and for targeting recipients who are fraudulently using their
                                                                       had workbook calculation errors. OIG has noted this problem
SNAP benefits. FNS generally agreed with our findings and
                                                                       before, and FSA officials stated that they have implemented
recommendations. (Audit Report 27703-0002-Hy, State Fraud
                                                                       more automated controls and edits to the program workbook
Detection Efforts for the Supplemental Nutrition Assistance
                                                                       that will help prevent these errors from recurring. Accordingly,
Program)
                                                                       OIG made no recommendations to the agency. (Audit Report
FSA Needs to Ensure the Accuracy of Aquaculture                        50703-0001-31, Farm Service Agency—Supplemental Revenue
Grant Program Payments                                                 Assistance Payment Program—American Recovery and
Established by the Recovery Act, the Aquaculture Grant                 Reinvestment Act of 2009)
Program made $50 million available to States to assist eligible        NRCS Needs to Improve How It Handles Purchasing
aquaculture producers with losses associated with high feed            Easements With Structures
costs during 2008. Based on our review of 4 out of the 35
                                                                       The Recovery Act allocated $145 million to NRCS’ Emergency
participating States—Alabama, Louisiana, Mississippi, and
                                                                       Watershed Protection Program, which acquires conservation
Texas—we found that eligible producers did not always receive
                                                                       easements from eligible landowners in order to restore
the correct benefits, and program reviews did not provide
                                                                       floodplains to their natural condition. Since some States opted
sufficient evidence to satisfy the Recovery Act’s emphasis on
                                                                       to use Recovery Act funds to purchase easements on lands
accountability and transparency. Additionally, we found
                                                                       that had houses on them, OIG assessed NRCS’ policies and
that although Federal funds must be maintained in interest-
                                                                       procedures for such acquisitions, and found that they were
bearing accounts, not all States placed the grant funds they
                                                                       inadequate. While easement agreements prohibit landowners
received into such accounts. In total, based on the four States
                                                                       from diminishing the property’s values, NRCS allowed several
included in our review, OIG identified improper payments
                                                                       landowners to strip fixtures, salvage construction materials,
of $246,845 of the $33.8 million distributed to the selected
                                                                       or even remove entire buildings in ways that raised questions
States. We recommended that FSA determine if other States
                                                                       about whether the removal affected the value of the easements.
correctly calculated grant payments and correct any over- or
                                                                       As a result of deficiencies in NRCS’ policies, for example,
underpayments made to these producers. FSA generally agreed
                                                                       one landowner was allowed to, effectively, sell a $197,000
with our findings and agreed to implement the recommended
                                                                       house to NRCS, keep it by moving it to another lot, and also
corrective actions. (Audit Report 03703-0002-Ch, Farm
                                                                       receive assistance from NRCS for the house-moving costs.
Service Agency Controls Over Aquaculture Grant Recovery Act
                                                                       We recommended that NRCS develop internal controls over
Funds—Phase 2)
                                                                       its processes for acquiring easements with buildings. NRCS
                                                                       agreed and we reached management decision when the report
                                                                       was issued. (Audit Report 10703-0003-KC, Natural Resources
                                                                       Conservation Service—Recovery Act, Emergency Watershed
                                                                       Protection Program Floodplain Easements, Easement
                                                                       Applications on Non-Agricultural Land)




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half       13
                                                                  Goal 2




 GOVERNMENTWIDE ACTIVITIES—GOAL 2                                               re-enter the program. The Inspector General also
                                                                                discussed suspension and debarment as a tool that
 Testimony Presented Before Congress                                            Federal agencies can use to better protect programs
                                                                                from repeat abusers. Though FNS’ policy is not to
 σσ    The House Agriculture Committee’s Subcommittee on
                                                                                pursue suspension or debarment of retailers, OIG
       Department Operations, Oversight, and Credit. On
                                                                                urged FNS to consider doing so on a case-by-case
       December 1, 2011, Inspector General Phyllis Fong and
                                                                                basis. She informed the Committee of OIG’s ongoing
       senior OIG officials testified on OIG’s work to prevent
                                                                                work to examine FNS’ methods for determining rates
       SNAP fraud and review the Department’s IT programs.
                                                                                of trafficking and improper payments and revisit how
       The Inspector General informed the Subcommittee
                                                                                FNS screens new retailer applications.
       of OIG’s ongoing series of audits analyzing 10 States’
       SNAP participant databases. OIG has recommended
       that FNS ensure the State agencies use a national                   Review of Legislation, Regulations, Directives,
       database to perform death matches and social security               and Memoranda
       number verifications, as well as checks to make sure
                                                                           σσ   Comments on the Office of Management and Budget’s
       information is entered correctly. She also noted that,
                                                                                Notice of Intent to Reform Policies Associated with
       in FY 2011, OIG’s SNAP investigations resulted
                                                                                Federal Grants. OIG reviewed and commented on
       in 179 convictions and monetary results totaling
                                                                                the Office of Federal Financial Management’s draft
       $26.5 million. The Inspector General described our
                                                                                Federal Register notice requesting public comment on
       completed and ongoing audits of the Department’s
                                                                                its Notice of Intent to Reform Policies Associated with
       IT infrastructure. She highlighted OIG’s finding that
                                                                                Federal Grants. OIG’s comments centered on three of
       OCIO has tended to attempt too many IT projects
                                                                                the notice’s provisions. First, we voiced concerns that
       at the same time, and recommended that it prioritize
                                                                                the proposal to raise the Single Audit Act threshold
       work to focus on completing a few projects.
                                                                                from $500,000 (the current requirement) to either $1
 σσ    The House Committee on Appropriations’ Subcommittee                      million or $5 million would subject a relatively small
       on Agriculture, Rural Development, Food and Drug                         number of entities or awardees to such audit coverage.
       Administration, and Related Agencies. On February                        We also suggested that the notice be clarified to make
       29, 2012, Inspector General Phyllis Fong provided                        clear whether, in instances where an entity is designated
       testimony on OIG’s FY 2013 budget request.                               as “high risk” by a Federal agency and thus subject to
       She reported that, in FY 2011, OIG’s audit and                           full Single Audit Act coverage, the entity or the related
       investigative work obtained potential monetary results                   Federal agency would be responsible for paying the
       totaling over $4.3 billion. She also reported that                       costs of the audit. Finally, we expressed concern with
       OIG is now starting the final phase of our Recovery                      the notice’s proposal to provide a biennial audit option
       Act audit objectives, which emphasize how agencies                       for certain entities that “maintain unqualified audit
       are reporting their programs’ accomplishments. The                       opinions on their financial statements and all major
       Inspector General explained a number of steps OIG                        programs.” We noted that such a biennial audit cycle
       has taken to increase effectiveness with a limited                       would not capture, or subject to audit, any short-lived
       budget, such as reducing travel expenses by 49 percent.                  programs or programs that are not annual in funding.
       She asked the Subcommittee to support the President’s
       request of $89 million for OIG, and pointed out that                Participation on Committees, Working Groups,
       every dollar invested in OIG has realized potential cost
                                                                           and Task Forces
       savings and recoveries of about $11.42.
                                                                           σσ   Technical Assistance to the National Institute of Food and
 σσ    House Committee on Oversight and Government
                                                                                Agriculture (NIFA). OIG auditors continue to provide
       Reform. On March 8, 2012, Inspector General
                                                                                technical assistance to NIFA during its financial and
       Phyllis Fong presented testimony on OIG’s work to
                                                                                administrative review of one of its grantees on the
       help FNS oversee SNAP and protect the program
                                                                                island of Oahu, Hawaii. NIFA has a long history of
       from individuals and businesses seeking to exploit it.
                                                                                awarding competitive research and facility grants to
       She explained that OIG works with FNS to thwart
                                                                                this institution. In FY 2010, NIFA sought OIG’s
       schemes that previously disqualified retailers use to




14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                Goal 2




     technical assistance addressing a series of complaints                   and coordinate and disseminate leads to appropriate
     from grantee employees and others, as well as an OIG                     agencies for followup. These teams generally include
     hotline complaint. During this past period, OIG                          representatives from law enforcement and various
     met with and provided feedback to NIFA staff as it                       regulatory agencies, with the U.S. Attorney’s Office
     addressed the grantee’s responses to NIFA’s review                       and IRS-CI typically in lead roles. OIG focuses
     findings.                                                                specifically on reports of suspected criminal activities
σσ   Operation Talon. OIG began Operation Talon in 1997                       by business entities and individuals involved in USDA
     to catch fugitives, many of them violent offenders,                      programs, including SNAP and WIC violations, stolen
     who are current or former SNAP recipients. Since its                     infant formula, and farm-related cases. Coordination
     inception, Operation Talon has led to the arrests of                     among the respective agencies results in improved
     thousands of fugitive felons. During the first half of                   communication and more efficient resource allocation.
     FY 2012, Talon operations were conducted in 6 States,               σσ   Mortgage Fraud Task Forces. OIG investigators
     resulting in more than 75 arrests. OIG combined                          participate in mortgage fraud task forces in California,
     forces with Federal, State, and local law enforcement                    Michigan, Minnesota, New Hampshire, and North
     agencies to arrest fugitives for such offenses as arson,                 Carolina, in addition to a national mortgage fraud
     assault, blackmail, robbery, sex offenses, weapons                       working group that meets monthly in Washington,
     violations, drug charges, and offenses against family                    D.C. These task forces identify trends, share
     and children.                                                            information, and coordinate investigations related
σσ   Bridge Card Enforcement Team. OIG investigators                          to mortgage fraud. They are working to improve
     work with this team to investigate criminal SNAP and                     efforts across the Federal executive branch and, with
     WIC violations. Team members include the Michigan                        State and local partners, investigate and prosecute
     State Police and IRS investigators. During this                          significant mortgage crimes, combat discrimination in
     reporting period, we have also worked with the Lansing                   the lending and financial markets, and recover proceeds
     Police Department’s Special Operations Division and                      for victims of financial crimes. The task forces are
     the Holland Police Department in Michigan. The                           headed by representatives from U.S. Attorney’s Offices
     FBI and U.S. Immigration and Customs Enforcement                         and the FBI. They are strategically placed in locations
     personnel also helped during search warrant                              identified as high-threat areas for mortgage fraud.
     operations. Since 2007, our teamwork has resulted                        They include participants from Federal program
     in 119 arrests and 150 search warrants served. The                       agencies and regulatory agencies including the U.S.
     U.S. Attorney’s Office for the Eastern and Western                       Department of Housing and Urban Development, the
     Districts of Michigan and the Michigan Attorney                          IRS, the Social Security Administration, local district
     General’s Office are pursuing multiple criminal                          attorney’s offices, and police departments.
     prosecutions, with cases so far resulting in 107 guilty             σσ   Organized Retail Theft Task Forces. As a member of the
     pleas. Sentences have included lengthy incarceration                     Retail Merchants Association of North Carolina Retail
     periods and $22.9 million in court-ordered fines and                     Theft Initiative, OIG agents coordinate, plan, and
     restitution. The U.S. Attorney’s Office has initiated                    meet regularly with various retail merchants in North
     forfeitures totaling over $3.85 million.                                 Carolina to discuss a proactive investigative strategy
σσ   Suspicious Activity Reports Review Teams. OIG agents                     to develop cases involving retail theft. This working
     in Alabama, Iowa, Kentucky, Maine, Massachusetts,                        group coordinates investigations of convenience stores
     Michigan, Minnesota, Mississippi, New Hampshire,                         and retail outlets which may be involved in the theft
     North Carolina, North Dakota, Oregon, South                              and resale of infant formula, electronics, and other
     Carolina, South Dakota, and Washington participate                       retail items. As members of the Bay Area Organized
     on suspicious activity review teams which are                            Retail Crime Association, OIG agents work with San
     coordinated by the U.S. Department of Justice through                    Francisco Bay Area law enforcement agencies and
     the U.S. Attorney’s Offices. These review teams                          organized retail crime investigators from major retailers
     systematically review all reports of suspicious activity                 to identify and coordinate action against organized
     that affect a specific geographic jurisdiction, identify                 retail theft rings, as well as to identify retail items
     individuals who may be engaged in criminal activities,                   susceptible to theft by such organized groups.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half            15
                                                                Goal 2




 σσ    Western Regional Inspectors General Councils and 	                σσ    Analysis of Massachusetts’ SNAP eligibility data (FNS),
       Intelligence Working Groups. OIG investigators work               σσ    Analysis of New Jersey’s SNAP eligibility data (FNS),
       with various councils and groups to develop Recovery
                                                                         σσ    Analysis of New York’s SNAP eligibility data (FNS),
       Act training, share information, discuss ongoing and
       potential work of mutual interest, and strengthen                 σσ    Roll up of SNAP eligibility data analysis (FNS),
       working relationships. In addition, Western Region                σσ    National School Lunch Program’s food service
       OIG investigators organize and participate in meetings                  management companies (FNS),
       to enhance coordination among Federal, State,
                                                                         σσ    Review of agreements reached in program complaints
       and local law enforcement agencies in the Pacific
                                                                               (Office of the Assistant Secretary for Civil Rights),
       Northwest.
                                                                         σσ    Vendor management and participant eligibility in the
 σσ    Inspector General councils meeting in other regions
                                                                               WIC Program (FNS),
       of the country also include OIG representatives,
       including a newly established group in Tampa Bay,                 σσ    Controls for authorizing SNAP retailers (FNS),
       Florida.                                                          σσ    2008 Farm Bill’s changes to payment limitations
 σσ    OIG agents participated in other task forces and                        (FSA),
       working groups related to benefits fraud, including:              σσ    Farm Storage Facility Loan Program (FSA), and
       •	 Alameda County, California, Vice Enforcement Team,             σσ    Procurement controls (RD).
       •	 Arizona Healthcare Fraud Task Force,
       •	 Disaster Fraud Working Group in the                            ONGOING REVIEWS FOR GOAL 2
          Northern District of Alabama,                                  UNDER RECOVERY ACT FUNDS
       •	 Social Services/Welfare Fraud Working Groups                   σσ    Floodplain Easements and Watershed Operations
          in Oregon and Washington State,                                      Programs—effectiveness review (NRCS),
       •	 Guardian Project Task Force in Montana, which                  σσ    Watershed Protection and Flood Prevention
          focuses on program-related fraud involving multiple                  Operations Program—field confirmations (NRCS),
          agencies on Native American reservations, and                  σσ    Emergency Watershed Protection Program floodplain
       •	 Welfare Investigations Colorado, Arizona,                            easements—field confirmations (NRCS),
          and Nevada working group.                                      σσ    Loss claims related to single family housing guaranteed
                                                                               loans (RHS),
 ONGOING REVIEWS FOR GOAL 2                                              σσ    Controls over the Community Facilities Direct Grant
 σσ    National Organic Program’s national list of allowed                     and Loan Program—phase 2 (RBS),
       and prohibited substances (AMS),                                  σσ    Single family housing direct loans controls compliance
 σσ    National Organic Program’s organic milk operations                      review (RHS),
       (AMS),                                                            σσ    Rural Business Enterprise Grants (RBS),
 σσ    Biomass Conversion Assistance Program—Matching                    σσ    Recovery Act impacts on SNAP (FNS),
       Payments Program (FSA),
                                                                         σσ    Review of SNAP Recovery Act performance measures
 σσ    Rural Rental Housing program maintenance costs and                      (FNS),
       inspections procedures (RHS),
                                                                         σσ    B&I Guaranteed Loan Program (RBS), and
 σσ    Conservation Reserve Program soil rental rates (FSA),
                                                                         σσ    Trade Adjustment Assistance for Farmers Program
 σσ    Validity of new producers (RMA),                                        (FSA, Foreign Agricultural Service (FAS), NIFA).
 σσ    Reduction of inconsistent yields (RMA),                           OIG’s annual plan for future audit and investigative work
 σσ    Oversight of organic crop insurance (RMA),                        under this goal may be found online at http://www.usda.gov/
 σσ    Controls over prevented planting (RMA),                           oig/webdocs/2012ABPFinal.pdf.




16    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                  alert management to immediate Recovery Act issues) under
                                                                       Goal 3 during this reporting period. OIG’s investigations
Support USDA in implementing its management                            under Goal 3 yielded 9 indictments, 15 convictions, and
improvement initiatives                                                $16.7 million in monetary results during this reporting period.

OIG conducts audits and investigations that focus on such
                                                                       EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
areas as improved financial management and accountability, IT
                                                                       GOAL 3
security and management, research, real property management,
employee corruption, and the Government Performance                    USDA Needs to Make Progress Towards Resolving
and Results Act. Our work in this area is vital because                Longstanding IT Deficiencies
the Department is entrusted with $128.5 billion in public
                                                                       USDA has made improvements in its IT security over the
resources annually. The effectiveness and efficiency with which
                                                                       last decade, but many longstanding weaknesses remain. In
USDA manages its assets are critical. USDA depends on IT
                                                                       FY 2009 and 2010, OIG made 33 recommendations for
to efficiently and effectively deliver its programs and provide
                                                                       improving the overall security of USDA’s systems. In our
meaningful and reliable financial reporting. One of the more
                                                                       FY 2011 FISMA audit, we noted that the Department had
significant dangers USDA faces is a cyber attack on its IT
                                                                       adequately closed only 6 recommendations, leaving 27 to be
infrastructure, whether by terrorists seeking to destroy unique
                                                                       addressed.
databases or criminals seeking economic gain.
                                                                       OIG has reported on many of these remaining
In the first half of FY 2012, we devoted 34 percent of our
                                                                       recommendations since 2001 when we first detailed material
total direct resources to Goal 3, with 98.6 percent of these
                                                                       weaknesses in the design and effectiveness of USDA’s overall
resources assigned to critical/high-impact work. A total of
                                                                       IT security program. In FY 2011, we observed increased
100 percent of our audit recommendations under Goal 3
                                                                       evidence of coordination, but the Department was not
resulted in management decision within 1 year, and 80 percent
                                                                       making measurable progress in approaching this problem
of our investigative cases resulted in criminal, civil, or
                                                                       collaboratively. For example, during FYs 2010 and 2011,
administrative action. OIG issued 17 audit reports and one
                                                                       OCIO received increased budgetary authority to enhance
Recovery Act fast report (quick turnaround report intended to
                                                                       USDA’s IT security. The Department funded 14 separate
                                                                       projects, but none of these projects were fully implemented
                                                                       during FY 2011; instead, funding was cut and nearly all of the
 Management Challenges Addressed UNDER GOAL 3                          projects were significantly scaled back, pushing implementation
 σσ     Interagency Communication, Coordination, and                   dates further into the future.
        Program Integration Need Improvement (also under
                                                                       USDA needs to undertake a manageable number of its
        Goals 1 and 2)
                                                                       highest priority projects, and it needs to show progress
 σσ     Strong, Integrated Internal Control Systems Still
                                                                       towards milestones for each active project. USDA’s inability
        Needed (also under Goal 2 and 4)
                                                                       to complete projects in a timely manner continues to hinder
 σσ     Information Technology Security Needs Continuing               its progress towards improving its security posture. OCIO
        Improvement (also under Goal 2)
                                                                       has responded to this audit, and we are working to reach
 σσ     USDA Needs to Develop a Proactive, Integrated                  management decision on the report’s recommendations. (Audit
        Strategy to Increase Agricultural Commerce and Trade           Report 50501-0002-12, FY 2011 Federal Information Security
 σσ     The American Recovery and Reinvestment Act of 2009             Management Act Report)
        Needs to be Effectively Implemented (also under Goal
        2 and 4)                                                       FS Needs to Improve Its Process for Acquiring IT
 σσ     Efforts to Identify, Report, and Reduce Improper               FS invests in IT to support the agency’s mission of sustaining
        Payments Need to be Strengthened (also under Goal 2)           the Nation’s forests and grasslands. With thousands of
                                                                       locations to interconnect (e.g., regional offices, national forests,




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half           17
                                                                     Goal 3




and ranger stations) and extensive data elements to collect               USDA Needs to Ensure That IT Contracting Officers
and process for reporting and decision making (e.g., land                 Do Not Exceed Their Authority When Signing New
management, recreation, research, and operational analysis),              Contracts
FS reported it spent $670 million for IT projects from FY
                                                                          During the course of the FY 2011 FISMA audit, OIG
2007 through 2009. However, OIG found that FS needs to
                                                                          found that a contracting officer in USDA’s Procurement and
ensure that these acquisitions are compatible and aligned with
                                                                          Operations Division, Information Technology Contracting
broader Departmental and Federal requirements and priorities.
                                                                          Branch, signed a contract that exceeded the officer’s
Specifically, FS can improve how it selects IT projects for
                                                                          $5 million warrant authority and resulted in an unauthorized
acquisition, complies with the Department’s acquisition
                                                                          commitment. We also learned that this contracting officer
approval requirements, enhances the integrity of cost and
                                                                          acted outside of a contracting officer’s roles and responsibilities,
performance data submitted for oversight review, and ensures
                                                                          disclosed sensitive contractual information to vendors, and
that it accurately reports the performance of its IT acquisitions.
                                                                          authorized a contractor to work even though funding was not
FS generally agreed with the findings and recommendations, as
                                                                          available. We noted that the Department lacks a process to
well as the need to address these issues. (Audit Report 08501-
                                                                          adequately monitor and administer effective oversight of the IT
0001-Te, Forest Service Acquisition of Information Technology
                                                                          Contracting Branch. We recommended that USDA ratify the
Software/Hardware)
                                                                          IT contract in order to correct this unauthorized commitment,
OCIO Needs To Improve Controls Over Service Center                        ensure all contracts are administered in accordance with
Agencies                                                                  procurement regulations, determine if other contracting officers
OCIO’s International Technology Services (ITS) provides                   have exceeded their warrants, and implement the necessary
IT services and support to service center agencies                        internal controls to ensure that warrant levels are not exceeded.
Departmentwide. Among its many responsibilities is the                    USDA concurred with our findings and recommendations
Service Center Modernization Initiative, which emphasizes                 and has provided a corrective action plan. Fast Report (Audit
replacing aging business and technology systems and                       Report 92501-0001-12 (1), Departmental Management [IT
streamlining business processes. We found that, although                  Contract])
ITS has made improvements in documenting policies and                     AMS Needs to Better Oversee Federally Authorized
procedures, those procedures were either not being followed,              Research and Promotion Boards
or were lacking in critical areas such as scanning computer
                                                                          At AMS’ request, OIG reviewed how the agency oversees
systems for known vulnerabilities, disaster recovery, physical
                                                                          the activities of the various research and promotion boards
security, and user access to computer systems. Many of the
                                                                          that producers, growers, and other stakeholders have created
exceptions identified in this report were caused by a lack of
                                                                          for agricultural commodities. We found that AMS could
communication and oversight between ITS and the service
                                                                          strengthen internal controls related to its oversight of board
center agencies. This occurred because service-level agreements
                                                                          activities. Prior to November 2010, AMS had not provided
between ITS and the centers did not meet National Institute of
                                                                          sufficient clarity about its roles and responsibilities in overseeing
Standards and Technology guidelines, such as defining ITS’ and
                                                                          funds used by these boards. In addition, AMS did not always
the centers’ roles and responsibilities. As a result, the network
                                                                          ensure that boards provided critical information needed
and systems may be exploitable, jeopardizing the integrity
                                                                          to accurately assess their activities. The revised guidelines
of data and system resources. To address these weaknesses,
                                                                          that AMS released in November 2010 clarified the agency’s
we recommended that ITS develop and implement effective
                                                                          oversight role by reinforcing its management reviews of research
controls over security scanning and access authorization.
                                                                          and promotion boards and strengthening policies on various
Agency officials generally agreed with our recommendations
                                                                          administrative functions, among other improvements. We
and stated that they have worked with the security center
                                                                          recommended that AMS could further improve its processes
agencies to improve communication. (Audit Report
                                                                          by developing standard operating procedures to ensure
88501-0001-IT, International Technology Services Selected
                                                                          consistency in staff oversight responsibilities and by developing
Controls Audit)




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                               Goal 3




and implementing periodic internal reviews of the agency’s          USDA FY 2011/2010 Consolidated Financial
program areas that oversee the boards. AMS agreed with our          Statements
findings and recommendations. (Audit Report 01099-0032-
                                                                    USDA’s FY 2011/2010 consolidated financial statements
Hy, Agricultural Marketing Service: Oversight of Federally
                                                                    received an unqualified opinion. Our consideration of internal
Authorized Research and Promotion Board Activities)
                                                                    controls over financial reporting identified two material
USDA Needs to Improve the Accuracy of the                           weaknesses in USDA’s overall financial management and IT
Information Reported for the Improper Payments                      security and controls. Our consideration of compliance with
Elimination and Recovery Act                                        laws and regulations disclosed instances of noncompliance
Congress enacted the Improper Payments Elimination and              relating to the Federal Financial Management Improvement
Recovery Act of 2010 (IPERA) to increase agency efforts to          Act of 1996 (FFMIA). (Audit Report 50401-0001-11,
report, reduce, monitor, and resolve the problems that cause        Department of Agriculture’s Consolidated Financial Statements
improper payments. IPERA requires OIG to determine                  for Fiscal Years 2011 and 2010)
whether USDA has complied with the Act annually, starting           In addition to auditing USDA’s consolidated financial
with FY 2011. This is OIG’s first IPERA report.                     statements, OIG either performed or oversaw contractors
USDA reported to Congress that several of its 16 “high risk”        as they performed audits of six USDA agencies’ financial
programs have considerably reduced their improper payment           statements:
rates. In FY 2009, USDA estimated that, overall, these              σσ    RD—Unqualified Opinion on FY 2011/2010 Financial
programs made 5.92 percent of their payments in error;                    Statements—RD received an unqualified opinion on
in FY 2010, USDA reported that it reduced that rate to                    its financial statements for FY 2011 and 2010. Our
5.37 percent. However, when we evaluated the improper                     consideration of internal controls over financial reporting
payment information the Office of the Chief Financial                     identified two significant deficiencies in RD’s review and
                                                                          documentation of credit reform re-estimate processes
Officer (OCFO) reports annually for USDA, we found that
                                                                          and controls over eligibility determinations for the single
USDA did not fully comply with four of seven requirements.
                                                                          family housing guaranteed loan Recovery Act funds. Our
USDA did not always report complete information about
                                                                          consideration of compliance with laws and regulations did
programmatic corrective actions and meet annual reduction                 not disclose any instances of noncompliance. (Audit Report
targets. In addition, USDA did not report estimates for 1                 85401-0001-11, Rural Development’s Financial Statements
of the 16 high-risk programs and, for 2 of the 16 high-risk               for Fiscal Years 2011 and 2010)
programs, reported error rates in excess of the 10 percent
                                                                    σσ    FS—Unqualified Opinion on FY 2011/2010 Financial
threshold. USDA’s overall noncompliance occurred because                  Statements—FS received an unqualified opinion on
OCFO has not fully developed its reporting process to ensure              its financial statements for FY 2011 and 2010. An
that it reports all required information and that USDA meets              independent certified public accounting firm conducted
its reduction targets. Because internal controls over USDA’s              the FY 2011 audit and identified significant deficiencies in
improper payment reporting have not been fully developed,                 IT and issues related to the agency’s property, plant, and
USDA’s improper payment estimates may be understated, and                 equipment. The auditors reported that FS substantially
USDA may have provided inaccurate information to Congress                 complied with FFMIA, and did not disclose any instances
about its progress made to prevent and eventually eliminate               of noncompliance with laws and regulations exclusive of
improper payments. We recommend that OCFO enhance                         FFMIA. Previously, another auditing firm had conducted
                                                                          the FY 2010 audit and expressed an unqualified opinion on
internal controls, including guidance, oversight, and second
                                                                          those financial statements. (Audit Report 08401-0001-11,
party reviews over the improper payment reporting process.
                                                                          Forest Service’s Financial Statements for Fiscal Years 2011
OCFO agreed with our recommendations. (Audit Report
                                                                          and 2010)
50024-0001-11, U.S. Department of Agriculture Fiscal Year
                                                                    σσ    CCC—Unqualified Opinion on FY 2011/2010 Financial
2011 Improper Payments Elimination and Recovery Act of
                                                                          Statements—An independent certified public accounting
2010—Compliance Review)
                                                                          firm audited CCC’s financial statements for FY 2011/2010,




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half          19
                                                                     Goal 3




     and issued an unqualified opinion. The report identified                   we reported no weaknesses related to internal controls.
     three significant deficiencies, including CCC’s financial                  (Audit Report 27401-0001-21, Food and Nutrition Service’s
     management system functionality, information security                      Financial Statements for Fiscal Years 2011 and 2010)
     controls, and controls over child agency financial reporting.
                                                                          Former FSIS Employee Sentenced to Prison for Wire
     The auditors considered the first significant deficiency
     to be a material weakness. Additionally, the auditors’
                                                                          Fraud and False Statements
     tests of compliance with laws and regulations disclosed              An OIG investigation found that a former FSIS District
     noncompliance with FFMIA for both Federal financial                  Veterinary Medical Specialist submitted false academic
     management systems requirements and the United States                credentials in order to gain employment as a veterinarian with
     Standard General Ledger at the transaction level. (Audit             the agency; he was subsequently paid approximately $188,000
     Report 06401-0001-11, Commodity Credit Corporation’s                 in salary for a position he was not qualified to hold. This
     Financial Statements for Fiscal Years 2011 and 2010)
                                                                          employee also signed over 600 food export certificates in which
σσ   NRCS—Disclaimer of Opinion on FY 2011 Financial                      he falsely represented himself as a veterinarian. In October
     Statements—An independent certified public accounting                2011, the former FSIS employee pled guilty to wire fraud
     firm audited NRCS’ financial statements for FY 2011 and              and false statements in U.S. District Court, Middle District
     issued the agency a disclaimer of opinion. The auditors’
                                                                          of Georgia; he was sentenced to 21 months in prison and was
     report identified weaknesses in NRCS’ accounting and
                                                                          ordered to pay $187,973 in restitution.
     controls over undelivered orders; accounting and controls
     over accrued expenses; controls over financial reporting;            FS Employee Sentenced for Theft of Public Funds
     accounting and controls for property, plant, and equipment;          Through Misuse of Government Credit Card
     general and application access controls; accounting and
     controls over revenue and unfilled customer orders; and              In October 2011, a former FS employee was sentenced in
     controls over purchase and fleet card transactions. The              Minnesota State Court to 7 days in jail and 60 months of
     auditing firm considered the first five deficiencies material        probation, and was ordered to pay $3,288 in restitution and
     weaknesses and the last two significant deficiencies.                a $125 fine for fraud he committed using Government credit
     Additionally, the auditors tested for compliance with laws           cards. Our investigation found that this employee stole a
     and regulations and disclosed instances of noncompliance             Government-issued fleet credit card and used it to purchase
     with FFMIA. (Audit Report 10401-0001-11, Natural                     more than $460 in fuel during March and April 2011. He
     Resources Conservation Service Financial Statements for              also used his Government-issued travel card 51 times, charging
     Fiscal Year 2011)                                                    more than $2,800 while he was not on approved travel. He
σσ   Federal Crop Insurance Corporation (FCIC)/RMA—                       was arrested and charged in September 2011 with felony theft
     Unqualified Opinion on FY 2011/2010 Financial                        of public funds, financial transaction card fraud, and possession
     Statements—An independent certified public accounting                of a small amount of marijuana. He pled guilty to felony theft
     firm audited FCIC/RMA’s consolidated financial statements
                                                                          of public funds that same month.
     for FY 2011/2010 and issued an unqualified opinion on the
     agency’s financial statements. The firm found no weaknesses          FS Employee in California Sentenced for Theft
     related to internal controls or noncompliance with laws
                                                                          In June 2011, OIG was notified that an FS employee in
     and regulations. (Audit Report 05401-0001-11, Federal
                                                                          California used a Government gas credit card to purchase
     Crop Insurance Corporation/Risk Management Agency’s
     Financial Statements for Fiscal Years 2011 and 2010)
                                                                          fuel for his personal vehicle. Our investigation disclosed that
                                                                          the employee had actually misused two separate Government
σσ   FNS—Unqualified Opinion on FY 2011/2010 Financial
                                                                          credit cards. After the employee confessed to the theft, he was
     Statements—OIG audited FNS’ financial statements for
                                                                          subsequently arrested and a search of the employee’s residence
     FY 2011/2010 and issued an unqualified opinion on the
     agency’s financial statements. Although our consideration            revealed a missing generator belonging to the Government.
     of compliance with laws and regulations disclosed one                In October 2011, the employee pled guilty to one count
     instance of noncompliance with the Improper Payments                 of grand theft. He was sentenced in November 2011 to
     Information Act of 2002, regarding the design of program             3 years’ probation, fined $1,487, and ordered to pay $6,805 in
     internal controls related to reporting improper payments,            restitution.




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 3




RECOVERY ACT REVIEWS                                                   performed in accordance with the Federal Acquisition
                                                                       Regulation, the Office of Management and Budget’s Recovery
FNS Needs to Improve Controls for Grants to                            Act guidance, and USDA directives. We found that:
Purchase Equipment for the National School Lunch
                                                                       σσ   ARS awarded a construction contract for major renovation
Program                                                                     of the Center Wing of the National Center for Agricultural
The Recovery Act allocated $100 million in grant funds to the               Utilization Research in Peoria, Illinois, but did not request a
National School Lunch Program, grants that allowed schools                  legal review of the solicitation. (Audit Report 02703-0008-
to purchase and renovate their food service equipment. Based                HQ, Agricultural Research Service Procurement Oversight
on our review of 11 school food authorities in 5 States, we                 Audit of National Center for Agricultural Utilization
found that FNS did not create adequate, proactive controls to               Research Contract)
ensure that grants were awarded based on Recovery Act criteria         σσ   ARS awarded a sole-source, negotiated, firm-fixed price
and accurate data, and did not ensure timely reporting on                   construction contract for repairs to the exterior finishes of
Recovery.gov. We recommended that FNS continue to update                    the West Annex and the Service Buildings at the Western
and implement adequate, proactive controls for its standard                 Regional Research Facility located in Albany, California,
                                                                            but did not document the acquisition planning performed
competitive grant award processes and identify areas that could
                                                                            or request a legal review of the solicitation. (Audit
be strengthened. FNS concurred with our recommendations.
                                                                            Report 02703-0009-HQ, Agricultural Research Service
(Audit Report 27703-0001-HQ, Recovery Act—Food and
                                                                            Procurement Oversight Audit of the Western Regional
Nutrition Service National School Lunch Program Equipment                   Research Facility Contract Awarded by Agricultural
Grants)                                                                     Research Service to Abide International, Inc.)
Agricultural Research Service (ARS) Needs to                           These issues were previously reported to ARS, and were
Conduct Legal Reviews of Solicitations for Contracts                   presented in the SARC, Second Half of FY 2011. Since the
OIG contracted with commercial firms to assist it in ensuring          agency agreed with our prior recommendations, we have made
that ARS’ Recovery Act procurement activities for buildings            no additional recommendations.
and facilities’ critical deferred maintenance projects were




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half           21
                                                                 Goal 3




 GOVERNMENTWIDE ACTIVITIES—GOAL 3                                              members. The council has six standing committees:
                                                                               Audit, Financial Statements, Information Technology,
 Review of Legislation, Regulations, Directives,                               Professional Development, Contracting, and the
 and Memoranda                                                                 Annual Conference. OIG’s Assistant Inspector General
                                                                               for Audit serves as the Chair of the Audit Committee.
 σσ    Departmental Regulation on Suspension and Debarment.
                                                                               The Audit Committee is currently working on
       OIG reviewed a draft USDA regulation on suspension
                                                                               updating the peer review guidance and training to
       and debarment prescribing the Departmental
                                                                               coincide with requirements in the December 2011
       standards for implementing suspension and debarment
                                                                               revision of the Government Auditing Standards.
       procedures for all USDA nonprocurement and
       procurement programs or activities. The draft                      σσ   Intra-Departmental Coordinating Committee on
       Departmental regulation is a positive development                       International Affairs. OIG auditors continue to
       in USDA’s ongoing effort to implement a vigorous                        participate in this committee’s meetings. Headed by
       suspension and debarment program. OIG did,                              FAS, part of the purpose of the committee (which
       however, did have two main concerns with the                            includes most USDA agencies) is to coordinate
       draft regulation in its current form. First, OIG was                    international activities. Some of the committee’s issues
       concerned that the regulation needed to clearly state                   included USDA’s role in implementing the President’s
       that persons who abuse USDA entitlement programs                        national export initiative and the Department’s global
       should be considered for suspension and debarment                       market strategy; reconstruction in Haiti, Pakistan,
       action. Second, OIG suggested that the regulation                       and Afghanistan; and international food security
       more specifically recognize the role that OIG plays                     and assistance. Our comments on a draft of the
       in providing information to the Department about                        Department’s global market strategy stressed the need
       dishonest or nonresponsible individuals and entities,                   for performance measures and milestones.
       information that can form a basis for suspension and               σσ   Afghanistan Country Team. As part of our committee
       debarment actions.                                                      involvement, OIG auditors continue to participate
 σσ    SECURE IT Act. OIG reviewed the draft SECURE                            in the Afghanistan country team meetings, during
       IT Act, a Senate bill proposed to improve information                   which we learned that the Department was receiving
       security, and recommended inserting into the bill one                   funds from the U. S. Agency for International
       current provision of FISMA that permits the annual                      Development under the Foreign Assistance Act to help
       independent evaluation of an agency’s information                       reconstruction and development. Section 632(a) of the
       security program and practices to be based in whole or                  Act gives audit and fiduciary responsibilities to OIG,
       in part on an audit, evaluation, or other report. The                   and so we continue to work to ensure accountability
       SECURE IT Act, as drafted, would require agencies to                    and oversight for grants and agreements that use these
       conduct an “evaluation.” OIG recommended inserting                      funds.
       the current FISMA language cited above in order                    σσ   USDA Credit Reform Workgroup. The Financial Audit
       to provide Inspectors General with the flexibility to                   Operations Division of OIG participates on this
       conduct either an “audit” or an “evaluation,” as deemed                 workgroup, which is composed of representatives
       necessary.                                                              from all USDA credit agencies. The purpose of
                                                                               this workgroup is to address accounting, auditing,
 Participation on Committees, Working Groups,                                  budgeting and reporting issues encountered by agencies
 and Task Forces                                                               subject to the Federal Credit Reform Act of 1990.
                                                                          σσ   Financial Statement Audit Network Workgroup. OIG
 σσ    Federal Audit Executive Council. OIG participates
                                                                               auditors are members of this workgroup, whose main
       in the Federal Audit Executive Council, whose main
                                                                               purpose is to share ideas, knowledge, and experience
       purpose is to discuss and coordinate issues affecting
                                                                               concerning Federal financial statement audits. In
       the Federal audit community with special emphasis
                                                                               conjunction with the network, OIG annually plans
       on audit policy and operations of common interest to




22    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                 Goal 3




     and hosts the Financial Statement Audit Conference                        The review also assists OPM in identifying and
     for the Federal financial community.                                      correcting errors relating to processing and distributing
σσ   Financial Fraud Enforcement Task Force (formerly                          Combined Federal Campaign payroll deductions. On
     National Procurement Fraud Task Force). OIG                               February 16, 2012, OIG noted an inconsistency within
     is a member of this task force, formed by the                             the draft procedures and suggested a correction to a
     U.S. Department of Justice in October 2006 as a                           mathematical formula contained therein. OPM agreed
     partnership among Federal agencies charged with                           to make the changes suggested.
     investigating and prosecuting Government contracting
     and grant illegalities. The purpose of the task force has            ONGOING REVIEWS FOR GOAL 3
     been expanded to include a wider variety of financial
                                                                          σσ   Review of FSA’s accounting for FY 2011 and 2012—
     crimes, from securities fraud to identity theft crimes.
                                                                               improper payment reporting (FSA),
     The task force is working to better allocate resources,
     improve coordination in financial fraud cases, and                   σσ   USDA and its agencies’ financial statements for 2012
     accelerate their investigation and prosecution.                           (OCFO),
     OIG Investigations field offices in all OIG regions                  σσ   FY 2011 NRCS improper payment review (NRCS),
     participate in procurement fraud task forces initiated               σσ   Executive Order 13520 High Dollar Report for FY
     by the local U.S. Attorney’s Offices.                                     2011 (OCFO),
σσ   The FBI’s Heart of America Regional Computer Forensics               σσ   FY 2012 retirement, health, and life insurance
     Laboratory. OIG’s National Computer Forensics                             withholdings and contribution and supplemental
     Division currently details one examiner to the FBI’s                      headcount report submitted to OPM (OCFO),
     Heart of America Regional Computer Forensics
                                                                          σσ   FY 2012 National Finance Center general controls
     Laboratory in Kansas City, Missouri. Our analyst
                                                                               (OCFO),
     works with the laboratory and has helped us obtain
     direct access to regional laboratories, training, samples            σσ   FY 2012 National Information Technology Center
     of applicable policies and procedures, and, when                          selected controls (OCFO),
     needed, FBI assistance for OIG computer forensic                     σσ   Review of selected controls of the eAuthentication
     work.                                                                     system (OCIO),
σσ   The FBI’s Public Corruption Working Group. An OIG                    σσ   NRCS’ oversight and compliance activities (NRCS),
     agent is a member of this relatively new group, which
                                                                          σσ   Beef Research and Promotion Board activities (AMS),
     is focused on combating corruption by Government
     officials and employees. Other member agencies                       σσ   FY 2012 FISMA report (OCIO),
     include the U.S. Department of Housing and Urban                     σσ   Procurement oversight of the South Building
     Development OIG, the Mississippi Attorney General’s                       modernization project (DM),
     Office, and Internal Affairs of the Jackson, Mississippi,
                                                                          σσ   Pigford 2—distribution of settlement funds for
     Police Department.
                                                                               discrimination litigation (USDA),
                                                                          σσ   Review of selected FNS programs for duplicate,
Review of Legislation, Regulations, Directives,                                overlapping, or fragmented objectives (FNS),
and Memoranda
                                                                          σσ   Review of USDA’s bank purchase and travel card data
σσ   Office of Personnel Management’s (OPM) Request for                        (USDA),
     Review of Draft Agreed Upon Procedures. On February
                                                                          σσ   Review of the Procurement Operations Division (DM,
     10, 2012, OPM provided draft procedures for this
                                                                               OCIO),
     annual review of payroll providers which is designed to
     assess the reasonableness of retirement, health benefits,            σσ   Section 632(a) funds provided by the U.S. Agency for
     and life insurance withholdings and contributions.                        International Development to USDA (FAS, APHIS,
                                                                               ARS, NIFA),




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half           23
                                                                 Goal 3




 σσ    private voluntary organization grant fund                          σσ    Procurement oversight of the Red River Valley
       accountability (FAS),                                                    Agricultural Research Center contract (ARS),
 σσ    international trade policy and procedures (FAS, FSIS,              σσ    Emergency Food Assistance Program (FNS),
       ARS, APHIS, FS, AMS),                                              σσ    Federalreporting.gov March 2011 data quality review
 σσ    Migratory Bird Habitat Initiative: NRCS’ response                        (USDA),
       to issues caused by the Deepwater Horizon Oil Spill                σσ    Data quality review of jobs reported as created or saved
       (NRCS),                                                                  by USDA Recovery Act programs (USDA),
 σσ    Followup on FS’ Working Capital Fund audits (FS),                  σσ    The Rural Utilities Service’s (RUS) controls over Water
       and                                                                      and Waste Disposal Loan and Grant Program (RUS),
 σσ    FS’ firefighting cost-share agreements with non-Federal            σσ    Broadband Initiative Program—pre-approval controls
       entities (FS).                                                           (RUS),
                                                                          σσ    Broadband Initiative Program—post-approval controls
 ONGOING REVIEWS FOR GOAL 3                                                     (RUS), and
 UNDER RECOVERY ACT FUNDS
                                                                          σσ    Recovery Act single-family housing direct and
 σσ    ARS’ contract closeout process (ARS),                                    guaranteed loans—effectiveness review (RUS).
 σσ    Procurement oversight of the National Center for                   OIG’s annual plan for future audit and investigative work
       Agricultural Utilization Research contract (ARS),                  under this goal may be found online at http://www.usda.gov/
 σσ    Procurement oversight of the Invasive Plant Research               oig/webdocs/2012ABPFinal.pdf.
       Laboratory contract (ARS),




24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                     Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
                                                                          FOR GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                               FS Needs To Clarify How It Handles Changes in the
natural resources                                                         Ownership of Easements in National Forests
                                                                          Because FS and timber companies often share roads on
OIG’s audits and investigations focus on USDA’s management
                                                                          national forest lands, the Forest Roads and Trails Act (FRTA)
and stewardship of natural resources, including soil, water, and
                                                                          gave the agency the authority to formalize agreements with
recreational settings. Our work in this area is vital because
                                                                          timber companies on the maintenance and use of these shared
USDA is entrusted with hundreds of billions of dollars in
                                                                          roads. OIG reviewed how FS was exercising this authority and
fixed public assets, such as 193 million acres of national forests
                                                                          found that, while agency personnel are properly granting and
and grasslands. USDA also provides scientific and technical
                                                                          acquiring easements, they are not prepared to effectively address
knowledge for enhancing and protecting the economic
                                                                          the issues arising from the sale of private forest land with FRTA
productivity and environmental quality of the estimated
                                                                          easements for residential development and commercial use.
1.5 billion acres of forests and associated rangelands in the
                                                                          While FS cannot stop development on private land or restrict
United States.
                                                                          access to FRTA roads, it should assess risks, develop strategies
In the first half of FY 2012, we devoted 5 percent of our total           to lessen the impacts of changing land use, and incorporate
direct resources to Goal 4, with 100 percent of these resources           appropriate changes into the agency’s planning rule and
assigned to critical/high-impact work. A total of 89 percent              strategic plan. Further, to avoid confusion and dispute, FS
of our audit recommendations under Goal 4 resulted in                     should attempt to implement a FRTA easement amendment,
management decision within 1 year, while no investigative cases           which would clarify rights and responsibilities before successor
resulted in criminal, civil, or administrative action. OIG issued         landowners come into possession of lands containing these
two audit reports and four Recovery Act fast reports under Goal           easements, and provide sufficient guidance to local field staff
4 during this reporting period. OIG’s investigations under                on how to address landowner disputes once the land has
Goal 4 from prior reporting periods yielded no indictments,               been sold. Agency officials agreed with four of the seven
one conviction, and about $70,000 in monetary results during              recommendations, and we are working to reach management
this reporting period.                                                    decision on the remaining three recommendations. (Audit
                                                                          Report 08601-0001-Ch, Forest Service—Evaluation of Forest
                                                                          Service’s Processes to Obtain and Grant Rights-of-Way and
 Management Challenges Addressed UNDER GOAL 4                             Easements)
 σσ     Strong, Integrated Internal Control Systems Still Needed          Land Trust Organization Enters into a Settlement with
        (also under Goals 2 and 3)                                        the Government
 σσ     Forest Service Management and Community Action                    In November 2011, a land trust organization entered into
        Needed to Improve Forest Health and Reduce
                                                                          a settlement agreement with the U.S. Attorney’s Office,
        Firefighting Costs
                                                                          Western District of Wisconsin, agreeing to pay $50,000
 σσ     The American Recovery and Reinvestment Act of 2009                to partly reimburse NRCS for overpayments caused when
        Needs to be Effectively Implemented (also under Goals
                                                                          the organization’s former executive director submitted false
        2 and 3)
                                                                          statements to the agency. Our investigation disclosed that
                                                                          the false statements caused NRCS to overpay for conservation
                                                                          easements from four Wisconsin landowners participating in the
                                                                          Farm and Ranchlands Protection Program. The organization
                                                                          also agreed to accept a voluntary 36-month exclusion from
                                                                          Federal conservation easement programs and to take remedial




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half        25
                                                                Goal 4




measures to further comply with standards developed by               a grant awarded to CSU. CSU administered the grant for a
a national organization that governs land trusts. Also in            sub-recipient—a privately owned sawmill—which was to use
November 2011, the organization’s former executive director          the grant funds for meeting the labor costs of its employees
agreed to repay $15,000 provided under the program and               and temporary workers. We found that CSU reimbursed
voluntarily agreed to be permanently excluded from submitting        the sawmill with grant funds without requesting adequate
or participating in Federal conservation reserve programs or         documentation to show that the sawmill had actually paid the
other USDA programs.                                                 expenses it claimed for reimbursement. This occurred because
                                                                     CSU’s policy for grant management did not have sufficient
RECOVERY ACT REVIEWS                                                 requirements for documentation to support claimed costs.
                                                                     Thus, CSU did not detect that the sawmill improperly used
FS Needs to Ensure that the Alabama Forest                           $128,610 of Recovery Act funds for unauthorized purposes,
Commission Complies with Federal Accounting                          such as paying for the sawmill’s non-salary costs, or directing
Requirements for Receiving Recovery Act Funds                        funds to an affiliated mill in another State.
FS spent $214 million in Recovery Act grant funding to
                                                                     We recommended that FS require CSU to alter its policies
implement wildland fire management activities on State,
                                                                     to require more documentation and review existing grants to
county, and private lands. Our examination of grants given
                                                                     ensure that cost claims were proper. Finally, FS should recover
to the State of Alabama’s Forestry Commission found that
                                                                     funds from CSU that the sawmill used for unallowable costs
the commission’s accounting system did not comply with
                                                                     that have not yet been repaid. FS generally agreed with our
Federal regulations governing grant funds, as it commingled
                                                                     recommendations. Recovery Act Fast Report (Audit Report
the majority of its costs into one single “pool,” and then
                                                                     08703-0005-SF (8), Recovery Act—Forest Service Hazardous
allocated the commingled costs to both its FS Recovery Act
                                                                     Fuels Reduction Ecosystem Restoration on Non-Federal Lands)
and non-Recovery Act grants. As a result, during the period
we reviewed, $14.4 million of the commission’s charges to            FS Needs to Ensure that the Wyoming State Forestry
its FS grants were unallowable. For instance, we estimated           Division Effectively Oversees Its Sub-Grants
the commission should have charged its FS Recovery Act-              Among the grants FS disbursed from the $214 million in
funded grants about $846,000 for salary costs. However, the          Recovery Act funding for wildland fire management was a sub-
commission actually charged Recovery Act-funded grants an            grant to the Wyoming State Forestry Division, which in turn
estimated $2.8 million in salary costs.                              sub-granted $550,000 to a county government. This county
We recommended that FS recover $14.4 million in unallowable          government used these funds to approve various contracted
costs, and postpone further reimbursements and awards                projects. In March 2011, OIG reviewed a hotline allegation
to the State agency until it is in compliance with Federal           that one of these contractors should not have received Recovery
requirements. FS also needs to direct the State agency to            Act funds due to a history of inadequate performance.
immediately stop its noncompliant practices, submit its cost         While our review did not substantiate the allegation, we found
plans for proper approval, and document the processes it uses        that the county sub-grant recipient did not appropriately select
to account for FS grant funds. FS generally agreed with our          or approve projects, or ensure that proposed projects’ costs were
recommendations. Recovery Act Fast Report (Audit Report              necessary and reasonable and that expenditures were supported.
08703-0005-SF (7), Recovery Act—Forest Service Hazardous             Specifically, we found that three contractors, who were
Fuels Reduction Ecosystem Restoration on Non-Federal Lands)          members of the county committee, controlled the selection
FS Needs to Ensure That Colorado State University                    process for wildland fire management projects in their favor.
(CSU) Properly Administers its Federal Recovery Act                  The committee approved these projects, despite the fact that the
Grants                                                               costs involved were excessive or unnecessary. For example, one
                                                                     project proposed helicopter logging at a cost of more than twice
Of the 152 wildland fire management projects FS approved on          that of an alternate estimate. Additionally, nearly 90 percent of
non-Federal lands from its Recovery Act funds, we reviewed           the project expenditures ($450,000) were unsupported.




26     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                  Goal 4




OIG recommended that FS postpone additional Wyoming                    accomplishment reports. FS generally agreed with OIG’s
State Forestry Division grant reimbursements until Wyoming             recommendations. (Audit Report 08703-0003-SF, Recovery
is able to provide FS with documentation for the potentially           Act—Forest Service Capital Improvement and Maintenance
unreasonable charges, and provide FS with assurance that it            Projects Roads, Bridges, and Related Watersheds)
can adequately assess and monitor its sub-grant recipients.
                                                                       FS Needs to Ensure that Nevada Fire Safe Council
If necessary, FS should recover charges that cannot be
                                                                       Complies With Federal Grant Requirements
reasonably justified. The agency generally agreed with OIG’s
recommendations. Recovery Act Fast Report (Audit Report                FS awarded a $3.6 million Recovery Act grant to the Nevada
08703-0005-SF (9), Recovery Act—Forest Service Hazardous               Fire Safe Council to perform hazardous fuels treatments on
Fuels Reduction Ecosystem Restoration on Non-Federal Lands)            non-Federal lands in the Lake Tahoe Basin. After receiving
                                                                       a hotline complaint alleging that the council was not
FS Needs to Ensure that Contracts Meet the                             conducting a fair and competitive bidding process, and that
Transparency Requirements of the Recovery Act                          some contractors were charging excessive prices, we found that
As part of the Recovery Act, FS was awarded $272 million for           the council did not properly account for the grant funds FS
road maintenance and decommissioning, bridge maintenance               awarded, for both the Recovery Act grant and non-Recovery
and decommissioning, and related watershed restoration and             Act grants—for a total of $9.8 million. We also found that
ecosystem enhancement. Based on our statistical sample of              the council was not segregating key accounting functions as
project contracts, we found that FS generally complied with            required by Federal regulations, and was routinely requesting
Recovery Act requirements and effectively completed the                reimbursements for expenses not yet paid. Over a 2-year
projects we reviewed, with three exceptions. We determined             period, the Council deposited $2.7 million of the FS Recovery
that 148 of 795 contracts (19 percent) did not fully comply            Act grant funds it received into a commingled account,
with procurement requirements. Because contracting officers            which it then used to pay various expenses, such as rent and
or procurement templates did not always adhere to updated              utilities, even though these costs were not authorized by the FS
requirements, there was increased risk that contractors who            Recovery Act grant. Finally, we found that the council had not
received contracts worth almost $63 million may not complete           been audited, as required by Federal regulations, since 2006.
them to Recovery Act specifications. We also determined                The council executive director maintained that he was unaware
that four employees erroneously charged administrative costs           of these requirements, and said the failure to complete the
of $21,458 to Recovery Act job codes while working on                  required audits was an oversight.
unrelated projects. Finally, we found that FS inaccurately
                                                                       OIG recommended that FS withhold grant fund
reported accomplishments for 11 of the 96 contracts and
                                                                       reimbursements until the council can prove its compliance with
agreements because personnel made inadvertent errors, such as
                                                                       Federal requirements, and conduct reviews on other remaining
transcription and data entry errors. As a result, FS did not fully
                                                                       grant funds. FS should also ensure that the council is audited
meet the transparency objective of the Recovery Act.
                                                                       before awarding any additional grants. FS generally agreed
We recommended that the agency remind personnel to                     with these recommendations. Recovery Act Fast Report (Audit
publicize and verify information, ensure that contracts are            Report 08703-0005-SF (10), Recovery Act—Forest Service
in accord with specifications, emphasize the importance of             Hazardous Fuels Reduction and Ecosystem Restoration on
charging time correctly, and correct any errors in the agency’s        Non-Federal Lands)




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half       27
                                                                 Goal 4




 GOVERNMENTWIDE ACTIVITIES—GOAL 4                                         ONGOING REVIEWS FOR GOAL 4
 Participation on Committees, Working Groups,                             σσ    Management of oil and gas resources on National
 and Task Forces                                                                Forest System land (FS).

 σσ    Environmental Crimes Working Groups. OIG agents                    ONGOING REVIEWS FOR GOAL 4
       continue to participate in working groups in the
                                                                          UNDER RECOVERY ACT FUNDS
       District of New Hampshire, the Eastern District
       of North Carolina, and the Western District of                     σσ    Wood-to-energy projects (FS),
       Washington, which were convened by U.S. Attorney’s                 σσ    Hazardous fuels reduction and ecosystem restoration
       Offices, to improve cooperation and coordination                         on Federal and non-Federal lands (FS),
       among local, State, and Federal law enforcement
                                                                          σσ    Facility improvement, maintenance, and rehabilitation
       agencies enforcing environmental laws, as well as
                                                                                (FS),
       to exchange information and provide prosecutorial
       support and training opportunities. An OIG agent                   σσ    Trail maintenance and decommissioning (FS),
       also continues to participate in an environmental and              σσ    Abandoned mine remediation (FS), and
       natural resources law enforcement working group in
                                                                          σσ    Performance measures for Recovery Act projects (FS).
       Arizona, which has similar goals of improving training
       and coordination for investigators working on natural              OIG’s annual plan for future audit and investigative work
       resources cases.                                                   under this goal may be found online at http://www.usda.gov/
 σσ    Minnesota Pest Risk Committee. OIG participates in                 oig/webdocs/2012ABPFinal.pdf.
       this committee, which is composed of Federal, State,
       and local representatives who focus on the efforts used
       in Minnesota to intercept and control invasive plants,
       insects, and animals that are detrimental to the State.




28    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                             Impact of the OIG




Gauging the Impact of OIG
                              PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                         FY 2012
                                                                                               FY 2011      FY 2012
Performance Measures                                                                                                     1st Half
                                                                                                Actual       Target
                                                                                                                          Actual

OIG direct resources dedicated to critical-risk and high-impact activities.                    97.2%         90%          98.1%


Audit recommendations where management decisions are achieved within 1 year.                   90.1%         92%          94.7%


Mandatory and Congressional, Secretarial, and agency-requested audits completed
                                                                                                100%         90%          92.9%
within required or agreed-to timeframes

Closed investigations that resulted in a referral for action to the U.S. Department of
                                                                                               82.5%         70%          85.1%
Justice, State, or local law enforcement officials, or relevant administrative authority.

Closed investigations that resulted in an indictment, conviction, civil suit or settlement,
                                                                                               70.4%         65%          68.3%
judgment, administrative action, or monetary result.




                    RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                         FY 2012
                                                                                               FY 2011      FY 2012
Performance Measures                                                                                                     1st Half
                                                                                                Actual       Target
                                                                                                                          Actual
Notify USDA agency managers of significant audit findings related to Recovery Act
programs along with recommendations for corrective action within 30 days after                 86.7%         85%          100%
identification.
Respond to Recovery Accountability and Transparency Board-sponsored requests and
                                                                                                100%         85%          100%
projects within established schedules or agreed-to timeframes.

An investigative determination to accept or decline an allegation of whistleblower
                                                                                                100%         100%         100%
retaliation is made within 180 days of receipt.

Whistleblower retaliation allegations are investigated and reported within 180 days of
                                                                                                N/A          75%           N/A
receipt.

Timely and accurate monthly Recovery Act funds reports submitted to the Recovery
                                                                                                100%         95%          100%
Board.




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half     29
                                                                      Impact of the OIG




                                    SUMMARY OF AUDIT ACTIVITIES—OCTOBER 2011-MARCH 2012
                                                               Audits Performed by OIG                                                                  29
Final Reports Issued: 35                                       Audits Performed Under the Single Audit Act                                                0
                                                               Audits Performed by Others                                                                 6
                                                               Number of Reports                                                                        34
Management Decisions Made
                                                               Number of Recommendations                                                               208
                                                               Total Questioned/Unsupported Costs                                             $1,169.1a, b

Total Dollar Impact (Millions) of Management-                       -Recommended for Recovery                                                        $14.0
Decided Reports: $1,169.9 million                                   -Not Recommended for Recovery                                                $1,155.1
                                                               Funds To Be Put to Better Use                                                          $0.8
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as auditees implement the agreed-upon corrective action plan and seek recovery of amounts
    recorded as debts due the Department.




                                SUMMARY OF FAST REPORTS ISSUED—OCTOBER 2011-MARCH 2012
Ongoing OIG Assignments Containing                             Fast Reports Issued                                                                        5
Fast Reports Issued to the Agency: 2a                          Number of Recommendations Made                                                           28
                                                               Total Questioned/Unsupported Costs                                                    $17.6

Total Dollar Findings (Millions) of                                 -Recommended for Recovery                                                        $17.6
Fast Reports Issued: $17.6b                                         -Not Recommended for Recovery                                                       $0
                                                               Funds to Be Put to Better Use                                                            $0
a
    Fast reports are quick turnaround reports intended to alert management to immediate issues during the course of an ongoing audit assignment.
b
    Monetary findings identified in fast reports are included in the Inventory of Questioned Costs and Loans for released products. (Final report could occur
    in future SARC reporting periods).




30       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                    Impact of the OIG




                           SUMMARY OF INVESTIGATIVE ACTIVITIES—OCTOBER 2011-MARCH 2012
                                                                Cases Opened                                                            234
Reports Issued: 142
                                                                Cases Referred for Prosecution                                           81
                                                                Indictments                                                             334
                                                                Convictions    a
                                                                                                                                        218
Impact of Investigations
                                                                Searches                                                                105
                                                                Arrests                                                                 261
                                                                Recoveries/Collections         b
                                                                                                                                        $9.5
                                                                Restitutions   c
                                                                                                                                      $31.2
                                                                Fines   d
                                                                                                                                        $0.3
Total Dollar Impact (Millions): $48.8                           Asset Forfeitures      e
                                                                                                                                        $4.9
                                                                Claims Established         f
                                                                                                                                        $1.0
                                                                Cost Avoidance     g
                                                                                                                                        $1.8
                                                                Administrative Penalties           h
                                                                                                                                        $0.1
                                                                Employees                                                                13
Administrative Sanctions: 147
                                                                Businesses/Persons                                                      134
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
  therefore, the 218 convictions do not necessarily relate to the 334 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half      31
                                                                       Impact of the OIG




                                INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                       FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                                                                                       UNSUPPORTEDa
                           CATEGORY                                 NUMBER             QUESTIONED COSTS AND LOANS
                                                                                                                                      COSTS AND LOANS
Reports for which no management decision had
                                                                       10                                       $289,676,181                  $1,039,135
been made by October 1, 2011.b
Reports which were issued during the reporting
                                                                       15                                     $1,176,633,464                  $2,700,000
period.c
Total reports with questioned costs and loans                          25                                      $1,466,309,645                  $3,739,135
                                                                                 Recommended for
                                                                                                                  $14,003,413                            $0
                                                                                 recovery
Of the 25 reports, those for which management
                                                                       15        Not recommended
decision was made during the reporting period.                                                                $1,155,087,328                             $0
                                                                                 for recovery
                                                                                 Costs not disallowed                      $421                          $0
Of the 25 reports, those for which no management
decision has been made by the end of this reporting                    10                                       $297,496,671                  $3,739,135
period.c
Total current reports for which no management
                                                                        5                                        $279,766,957                  $1,039,135
decision was made within 6 months of issuance.b
a
    Unsupported values are included in questioned values
b
    Carried over from previous reporting periods
c
    Includes four issued fast reports with monetary values totaling $17,619,879. Management decision for these values will be reported at final report
    issuance. (Final reports could occur in future SARC reporting periods).




               INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                 FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                            CATEGORY                                                  NUMBER                     DOLLAR VALUE
Reports for which no management decision had been made by
                                                                                                          2                                     $766,727
October 1, 2011.a
Reports which were issued during the reporting period.                                                    1                                       $12,135
Total reports with recommendations that funds be put to better use                                        3                                      $778,862
                                                                                                                    Disallowed costs            $778,862
Of the three reports, those for which management decision was made during
                                                                                                          3         Costs not
the reporting period.                                                                                                                                    $0
                                                                                                                    disallowed
Of the three reports, those for which no management decision has been made
                                                                                                          0                                              $0
by the end of this reporting period.
Total current reports for which no management decision was made within
                                                                                                          0                                              $0
6 months of issuance.
a
    Carried over from previous reporting periods.




32        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                              Impact of the OIG




Program Improvement Recommendations                                      Audit and Investigation Peer Reviews
A significant number of our audit recommendations carry no               σσ       During the current semiannual reporting period, there
monetary value per se, but their impact can be immeasurable                       were no audit peer reviews of OIG’s audit organization.
in terms of safety, security, and public health. They can also                    However, during the current reporting period, OIG received
contribute considerably toward economy, efficiency, and                           notification from the Environmental Protection Agency’s
                                                                                  (EPA) OIG that it planned to initiate in the near future an
effectiveness in USDA’s programs and operations. During
                                                                                  external peer review of USDA OIG’s audit organization.
this reporting period, we issued 124 program improvement
                                                                                  Since that notification, we have been working with EPA
recommendations, and management agreed to implement a
                                                                                  OIG to pave the way for the external peer review. EPA
total of 178 that were issued this period or earlier. Examples of                 OIG’s entrance conference with USDA OIG was scheduled
those issued this period include the following (see the main text                 for April 5, 2012.
of this report for a summary of the audits that prompted these
                                                                         σσ       During the current semiannual reporting period, there
recommendations):                                                                 were no peer reviews of OIG’s investigation organization.
σσ    USDA officials agreed to seek adequate funding for                          Our most recent review was conducted in 2010 by the
      NASS to conduct a comprehensive survey of honey bee                         Department of Homeland Security OIG. The report, issued
      colony production and health so that the Department can                     November 10, 2010, contained no recommendations, and
      determine the true extent of colony collapse disorder in the                determined that OIG is in compliance with the quality
      United States and its effect on the agricultural sector.                    standards established by the Council of the Inspectors
                                                                                  General on Integrity and Efficiency and the Attorney
σσ    AMS agreed to improve how it oversees certifying agents for
                                                                                  General. Peer reviews are generally conducted on a 3-year
      the National Organic Program for milk so that the agency
                                                                                  cycle.
      can promote greater confidence that milk labeled as “USDA
      Organic” meets the standards consumers expect.
σσ    FS agreed to develop strategies to lessen the environmental
      and economic impact of the changing use of forest
      roads that were built for timber companies but are being
      converted to residential use.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half           33
                                                                        Impact of the OIG




Audit Reports
From October 1, 2011, through March 31, 2012, OIG issued 35 audit reports, including 6 performed by others. During this same
period, 5 fast reports were issued. The following is a summary of those audit products by agency:


                                                          AUDIT AND FAST REPORT TOTALS
 Total funds that can be put to better use                                                                                                         $12,135

 Total questioned costs and loansa,b                                                                                                      $1,176,633,464
 a
     Unsupported values are included in the questioned values.
 b
     Includes fast report monetary values of $17,619,879. (Final reports could occur in future SARC reporting periods).




          SUMMARY OF AUDIT AND FAST REPORTS RELEASED FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                                                                                              FUNDS TO BE
                                                                                  QUESTIONED COSTS            UNSUPPORTED COSTS
                     AGENCY TYPE                          AUDITS RELEASED                                                                    PUT TO BETTER
                                                                                    AND LOANSa, c                 AND LOANS
                                                                                                                                                  USE
 SINGLE AGENCY AUDIT                                              34                 $1,176,633,464                 $2,700,000                  $12,135

 MULTIAGENCY AUDIT                                                  6

 TOTALS                                                            40                 $1,176,633,464                 $2,700,000                  $12,135
 TOTAL COMPLETED UNDER
                                                                    6
 CONTRACTb
 ISSUED AUDITS COMPLETED
                                                                    0
 UNDER THE SINGLE AUDIT ACT
 a
     Unsupported values are included in the questioned values.
 b
     Includes audits performed under contract by others such as an independent certified public accounting firm.
 c
     Includes fast report monetary values of $17,619,879 for 5 fast reports issued during this period. Final report could occur in future SARC reporting
     periods.




34         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                 Impact of the OIG




                       AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                 FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                              QUESTIONED      UNSUPPORTED        FUNDS TO
AUDIT TOTALS                      RELEASE
                   AUDIT NUMBER                           TITLE                COSTS AND       COSTS AND         BE PUT TO
 BY AGENCY                         DATE
                                                                                 LOANS           LOANS a        BETTER USE
                                             Oversight of Federally
Agricultural     01099-0032-Hy    03/12/12   Authorized Research and
Marketing                                    Promotion Board Activities
Service: 2                                   National Organic Program –
                 01601-0001-32    02/27/12
                                             Organic Milk
                                             Procurement Oversight
                                             Audit of National Center
                 02703-0008-HQ    12/21/11
                                             for Agricultural Utilization
Agricultural                                 Research Contract
Research
                                             Recovery Act: General
Service: 2                                   Procurement Oversight Audit
                 02703-0009-HQ    12/21/11
                                             of ARS Contract Awarded to
                                             Abide International, Inc.

Commodity                                    Commodity Credit
                                             Corporation Financial
Credit           06401-0001-11    11/10/11
                                             Statements for Fiscal Year
Corporation: 1                               2011 and 2010
Farm Service                                 Controls Over Aquaculture
                 03703-0002-Ch    01/20/12   Grant Recovery Act Funds              $229,533                         $12,135
Agency: 1                                    (Phase 2)
                                             Analysis of Kansas’
                                             Supplemental Nutrition
                 27002-0001-13    11/23/11                                         $109,845
                                             Assistance Program (SNAP)
                                             Eligibility Data
                                             Analysis of SNAP Anti-fraud
                                             Locator Using Electronic
                 27002-0001-DA    11/22/11   Benefits Transfer Retailer
                                             Transactions (ALERT)
Food and                                     Database
Nutrition                                    Analysis of Florida’s SNAP
                 27002-0002-13    11/29/11                                         $380,225
                                             Eligibility Data
Service: 13
                                             Analysis of Louisiana’s SNAP
                 27002-0003-13    01/31/12                                         $303,273
                                             Eligibility Data
                                             Analysis of Alabama’s SNAP
                 27002-0004-13    01/31/12                                         $207,989
                                             Eligibility Data
                                             Analysis of Mississippi’s
                 27002-0005-13    01/31/12                                         $123,643
                                             SNAP Eligibility Data
                                             Analysis of Texas’ SNAP
                 27002-0006-13    03/31/12                                         $523,551
                                             Eligibility Data




                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half   35
                                                     Impact of the OIG




                      AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                                  QUESTIONED      UNSUPPORTED    FUNDS TO
 AUDIT TOTALS                         RELEASE
                  AUDIT NUMBER                                 TITLE               COSTS AND       COSTS AND     BE PUT TO
  BY AGENCY                            DATE
                                                                                     LOANS           LOANS a    BETTER USE
                                                 Analysis of Missouri’s SNAP
                27002-0007-13         03/21/12                                        $229,083
                                                 Eligibility Data
                                                 Identifying Areas of Risk in
                                                 the Child and Adult Care
                27009-0001-DA         01/31/12   Food Program (CACFP)
                                                 Using Automated Data
                                                 Analysis Tools
Food and                                         Food and Nutrition Service
Nutrition       27401-0001-21         11/14/12   Financial Statements for
Service: 13                                      Fiscal Year 2011 and 2010
                                                 Review of Management
                27601-0012-SF         11/18/11                                      $2,486,633
                                                 Controls for CACFP
                                                 Recovery Act—FNS,
                27703-0001-HQ         02/15/12   National School Lunch
                                                 Program Equipment Grants
                                                 State Fraud Detection Efforts
                27703-0002-Hy         01/27/12
                                                 for SNAP
                                                 Forest Service Financial
                08401-0001-11         11/10/11   Statements for Fiscal Year
                                                 2011 and 2010
                                                 Forest Service—Acquisition
                08501-0001-Te         02/13/12   of Information Technology       $1,138,000,000
                                                 Software/Hardware
                                                 Evaluation of Processes to
                08601-0001-Ch         03/15/12   Obtain and Grant Rights-of-
                                                 way and Easements
Forest                                           Recovery Act Forest Service
Service: 8                                       Capital Improvement and
                08703-0003-SF         03/12/12   Maintenance Projects –
                                                 Roads, Bridges, and Related
                                                 Watersheds
                                                 Fast Report: Hazardous
                                                 Fuels Reduction—State
                                                 Agency Charged Recovery
                08703-0005-SF(7)      11/23/11                                     $14,400,000
                                                 Act Grants and Non-
                                                 Recovery Act Grants $14.4
                                                 Million in Unallowable Costs




36   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                   Impact of the OIG




                       AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                 FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                                QUESTIONED      UNSUPPORTED        FUNDS TO
AUDIT TOTALS                         RELEASE
                   AUDIT NUMBER                             TITLE                COSTS AND       COSTS AND         BE PUT TO
 BY AGENCY                            DATE
                                                                                   LOANS           LOANS a        BETTER USE
                                                Fast Report: Hazardous
                                                Fuels Reduction—Grant
                 08703-0005-SF (8)   10/21/11   Recipient Used Recovery               $69,879
                                                Act Funds for Unauthorized
                                                Purposes
                                                Fast Report: Hazardous
                                                Fuels Reduction—Recovery
Forest                                          Act Grant Recipient Did
                 08703-0005-SF(9)    11/01/11                                        $450,000
Service: 8                                      Not Have Controls in Place
                                                to Properly Administer Sub-
                                                awarded Funds
                                                Fast Report: Hazardous
                                                Fuels Reduction –Grant
                 08703-0005-SF(10)   01/04/12   Recipient Had Inadequate           $2,700,000       $2,700,000
                                                Controls to Account for Its
                                                Recovery Act Grants
                                                Fast Report: Procurement
Management                                      Operations, Fourth Data
                 92501-0001-12(1)    11/16/11
Services: 1                                     Center in Support of the
                                                USDA eMail Consolidation
                                                Department of Agriculture
                                                (USDA) Compliance
                 50024-0001-11       03/14/12   With Improper Payments
                                                Elimination and Recovery
                                                Act of 2010
                                                USDA’s Response to Colony
                 50099-0084-Hy       01/20/12
                                                Collapse Disorder
                                                USDA’s Consolidated
                 50401-0001-11       11/15/11   Financial Statements for
Multiagency: 6                                  Fiscal Years 2011 and 2010
                                                Fiscal Year 2011 Audit of
                 50401-0002-11       11/15/11
                                                USDA’s Closing Package
                                                Fiscal Year 2011 Federal
                 50501-0002-12       11/15/11   Information Security
                                                Management Act Report
                                                Recovery Act Supplemental
                 50703-0001-31       03/12/12   Revenue Assistance Payments
                                                Program




                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half   37
                                                                    Impact of the OIG




                              AUDIT AND FAST REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        FROM OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                                                                                                  QUESTIONED       UNSUPPORTED      FUNDS TO
  AUDIT TOTALS                                   RELEASE
                         AUDIT NUMBER                                        TITLE                 COSTS AND        COSTS AND       BE PUT TO
   BY AGENCY                                      DATE
                                                                                                     LOANS            LOANS a      BETTER USE
                                                               Natural Resources
                                                               Conservation Service
                     10401-0001-11               11/08/11
                                                               Financial Statements for
 Natural                                                       Fiscal Year 2011
 Resources                                                     Recovery Act, Emergency
 Conservation                                                  Watershed Protection
 Service: 2                                                    Program Floodplain
                     10703-0003-KC               03/14/12
                                                               Easements, Easement
                                                               Applications on Non-
                                                               Agricultural Land Grants
 Office of
 the Chief                                                     International Technology
                     88501-0001-IT               03/20/12      Services Selected Controls
 Information                                                   Audit
 Officer: 1
 Risk                                                          Federal Crop Insurance
                                                               Corporation Financial
 Management          05401-0001-11               11/08/11
                                                               Statements for Fiscal Year
 Agency: 1                                                     2011 and 2010
 Rural
 Business-                                                     Recovery Act—Business and
                     34703-0002-Te               02/12/12      Industry Guaranteed Loan             $16,419,810
 Cooperative                                                   Program, Phase 2
 Service: 1
 Rural                                                         Rural Development Financial
 Development:        85401-0001-11               11/10/11      Statements for Fiscal Years
 1                                                             2011 and 2010
                     Grand Total                                                                  $1,176,633,464      $2,700,000       $12,135

a
  Unsupported values are included in questioned values.
NOTE: Fast report monetary values ($17,619,879) are included in the inventory of audit reports.




38      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                           Impact of the OIG




                                          AUDITS WITHOUT MANAGEMENT DECISION
 In total, OIG has 8 audits without management decision. Their details are provided in the tables below:

                                              NEW FOR THIS REPORTING PERIOD
                                                                                                 Total Value at     Amount With No
   Agency      Date Issued                           Title of Report                               Issuance         Mgmt Decision
                                                                                                  (in dollars)        (in dollars)
                             Citrus Crop Indemnity Payments from Hurricane Wilma in
 RMA            09/07/11                                                                        $44,059,385         $44,059,385
                             Florida (05099-0029-At)
 Total New For This Reporting Period: 1




The audits in the following table are still pending agency action or are under judicial, legal, or investigative proceedings. Details
on the recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies
have been informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been
completed. The appropriate Under and Assistant Secretaries have been notified of those audits without management decisions.

                             AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                                                                                 Total Value at     Amount With No
   Agency      Date Issued                           Title of Report                               Issuance         Mgmt Decision
                                                                                                  (in dollars)        (in dollars)
                             Hurricane Relief Initiatives: Livestock and Feed Indemnity
 FSA          02/02/09                                                                             $1,866,412            $427,276
                             Programs (03601‑0023‑KC)
                             Implementation of the Agricultural Risk Protection Act
              09/30/03                                                                                        0                   0
                             (50099‑0012‑KC)
 Multi-                      Effectiveness and Enforcement of Debarment and
              08/16/10                                                                                        0                   0
 agency                      Suspension Regulations in USDA (50601-0014-At)
                             USDA Payments for 2005 Citrus Canker Tree Losses
              03/23/11                                                                               $633,717            $633,717
                             (50099-0046-At)
                             Crop Loss and Quality Adjustments for Aflatoxin Infected
              09/30/08                                                                            $15,951,016         $15,951,016
                             Corn (05601‑0015‑Te)
 RMA                         RMA’s 2005 Emergency Hurricane Relief Efforts in Florida
              03/04/09                                                                           $217,256,417        $217,256,417
                             (05099‑0028‑At)
              09/16/09       RMA Compliance Activities (05601‑0011‑At)                                        0                   0
 Total Previously Reported But Not Yet Resolved: 7




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half    39
                                                          Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION—                                  to follow either RMA’s general loss procedures for adjusting
NARRATIVE FOR NEW ENTRIES                                            citrus losses or the emergency loss procedures RMA issued to
                                                                     expedite Hurricane Wilma-related payments. Instead, they
Citrus Crop Indemnity Payments from Hurricane                        used procedures or allowed options that were not approved by
Wilma in Florida (05099-0029-At),                                    RMA. We discussed with the AIPs their reasons for deviating
Issued September 7, 2011                                             from RMA’s approved procedures, but they maintained that
When Hurricane Wilma struck Florida on October 24, 2005,             they followed procedures.
it damaged citrus crops that many producers had insured with         We concluded that these two AIPs needed to review all Florida
insurance policies reinsured by RMA. Though these policies           citrus indemnities for which the AIPs requested average yields
were sold and serviced by private insurance companies known          from RMA, and recalculate and correct those indemnities.
as approved insurance providers (AIP), RMA reinsures losses          However, since the AIPs did not perform the required appraisals
the AIPs suffer. Overall, RMA reinsured the AIPs and Florida         of the damage that occurred due to Hurricane Wilma, the
citrus producers with $384.9 million in liability for crop           AIPs may not be able to recalculate the correct indemnities. If
year (CY) 2006. Hurricane Wilma resulted in 2,420 citrus             the AIPs cannot recalculate the correct indemnities payable to
fruit crop insurance claims and $60.8 million in indemnity           citrus producers using RMA-approved procedures, then RMA
payments. The majority of these indemnities, 87 percent              needs to follow the Standard Reinsurance Agreement and deny
($53 million), were processed by two AIPs.                           reinsurance for indemnities, totaling up to $44.1 million.
Based on our review of 144 claims processed to pay $37 million       RMA agreed with our position, but work is ongoing to reach
in indemnities, we found that these two AIPs circumvented            management decision on the recommendation.
established procedures for adjusting citrus losses. They failed




40     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                          Impact of the OIG




Indictments and Convictions                                            court action on an indictment varies widely; therefore, the
                                                                       218 convictions do not necessarily relate to the 334 indictments.
From October 1, 2011 through March 31, 2012, OIG                       Fines, recoveries/collections, restitutions, claims established,
completed 142 investigations. We referred 81 cases to Federal,         cost avoidance, and administrative penalties resulting from our
State, and local prosecutors for their decision.                       investigations totaled about $48.8 million. The following is a
During the reporting period, our investigations led to 334             breakdown, by agency, of indictments and convictions for the
indictments and 218 convictions. The period of time to obtain          reporting period.



                               INDICTMENTS AND CONVICTIONS—October 1, 2011-March 31, 2012
                     Agency                                Indictments                                     Convictions*
                      AMS                                          2                                              2
                     APHIS                                        42                                             45
                       ARS                                         1                                              0
                       FAS                                         3                                              1
                       FNS                                       239                                            130
                        FS                                         3                                              6
                       FSA                                       11                                              16
                      FSIS                                        4                                               5
                     GIPSA                                        6                                               0
                       RBS                                        2                                               0
                      RHS                                        15                                               6
                      RMA                                         6                                               7
                      Totals                                     334                                            218
 * This category includes pretrial diversions.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half           41
                                                            Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                    period, the hotline received 1,606 complaints, which included
                                                                       allegations of participant fraud, employee misconduct, and
The OIG hotline serves as a national intake point for reports          mismanagement, as well as opinions about USDA programs.
from both employees and the general public of suspected                The following tables are a summary of the Hotline complaints
incidents of fraud, waste, mismanagement, and abuse in                 for the first half of FY 2012.
USDA programs and operations. During this reporting



                                            Hotline Complaints Summary—FY 2012, 1st Half
 Total Number of Complaints Received                                                                           1,606



   Figure 1. Volume and Type


                                                                                              Participant Fraud (1,069)




                   Employee Misconduct (141)


                   Reprisal (2)
                   Bribery (1)

                   Opinion/Information (112)

                   Health/Safety Problem (26)                                                 Waste/Management (255)



   Figure 2. Disposition of Complaints Received

                                                                                                        Referred to USDA Agencies
       Referred to Other Law
                                                                                                               for Response (512)
       Enforcement Agencies (6)

       Referred to OIG Audit or
       Investigations for Review (120)

       Referred to State Agencies (5)

       Filed Without Referral–                                                                   Referred to FNS for Tracking (662)
       Insufficient Information (51)



       Referred to USDA or Other Agencies
       for Information–No Response
       Needed (250)




42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
                                                                 Impact of the OIG




                   Table 15: FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                              FOR THE PERIOD OCTOBER 1, 2011 THROUGH MARCH 31, 2012
                     Categories                                                          Type                               Number
                                                         FOIA/PA Requests Received                                             59
                                                         Granted                                                                2
FOIA/PA Requests Received/Processed                      Partially Granted                                                     16
                                                         Not Granted                                                           38
                                                         Total FOIA/PA Requests Processed                                      56
                                                         No Records Available                                                  13
                                                         Referred to Other Agencies                                             4
                                                         Requests Denied in Full Exemption 5                                    2
                                                         Requests Denied in Full Exemption 7(A)                                 7
                                                         Requests Denied in Full Exemption 7(C)                                 1
Reasons for Denial                                       Request Withdrawn                                                      3
                                                         Fee-Related                                                            1
                                                         Not a Proper FOIA Request                                              0
                                                         Not an Agency Record                                                   0
                                                         Duplicate Request                                                      0
                                                         Other                                                                  7
Requests for OIG Reports from Congress and               Received                                                               1
Other Government Agencies                                Processed                                                              1
                                                         Appeals Received                                                       5
                                                         Appeals Processed                                                      5
                                                              Completely Upheld                                                 1
Appeals                                                       Partially Reversed                                                1
                                                              Completely Reversed                                               1
                                                              Requests Withdrawn                                                1
                                                              Other                                                             1
                                                         OIG Reports/Documents Released in Response to Requests                 8
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 48 audit reports were posted online on the OIG website: http://www.usda.gov/oig




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half    43
                                                        Impact of the OIG




Abbreviations
Abbreviation Full Name                                              Abbreviation Full Name
ALERT           Anti-Fraud Locator EBT Retailer Transactions        IRS          Internal Revenue Service
AMS             Agricultural Marketing Service                      IRS-CI       Internal Revenue Service-Criminal
                                                                                 Investigation
APHIS           Animal and Plant Health Inspection Service
                                                                    IT           information technology
ARS             Agricultural Research Service
                                                                    ITS          International Technology Services
B&I             Business and Industry
                                                                    NASS         National Agricultural Statistics Service
CACFP           Child and Adult Care Food Program
                                                                    NIFA         National Institute of Food and Agriculture
CCC             Commodity Credit Corporation
                                                                    NRCS         Natural Resources Conservation Service
CEO             Chief Executive Officer
                                                                    OCFO         Office of the Chief Financial Officer
CSU             Colorado State University
                                                                    OCIO         Office of the Chief Information Officer
EBT             electronic benefits transfer
                                                                    OIG          Office of Inspector General
EPA             Environmental Protection Agency
                                                                    OPM          Office of Personnel Management
FAS             Foreign Agricultural Service
                                                                    PA           Privacy Act
FBI             Federal Bureau of Investigation
                                                                    RBS          Rural Business-Cooperative Service
FCIC            Federal Crop Insurance Corporation
                                                                    Recovery     American Recovery and Reinvestment Act of
FFMIA           Federal Financial Management Improvement
                                                                    Act          2009
                Act of 1996
                                                                    Recovery     Recovery Accountability and Transparency
FISMA           Federal Information Security Management
                                                                    Board        Board
                Act
                                                                    RD           Rural Development
FNS             Food and Nutrition Service
                                                                    RHS          Rural Housing Service
FOIA            Freedom of Information Act
                                                                    RMA          Risk Management Agency
FRTA            Forest Roads and Trails Act
                                                                    RUS          Rural Utilities Service
FS              Forest Service
                                                                    SARC         Semiannual Report to Congress
FSA             Farm Service Agency
                                                                    SNAP         Supplemental Nutrition Assistance Program
FSIS            Food Safety and Inspection Service
                                                                    USDA         U.S. Department of Agriculture
FY              fiscal year
                                                                    WIC          Special Supplemental Nutrition Program for
IPERA           Improper Payments Elimination and Recovery
                                                                                 Women, Infants, and Children
                Act




44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2012 1st Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (178 TOTAL)
σσ    USDA officials agreed to seek adequate funding for NASS to conduct a comprehensive survey of honey bee colony production and
      health so that the Department can determine the true extent of colony collapse disorder in the United States and its effect on the
      agricultural sector.
σσ    AMS agreed to improve how it oversees certifying agents for the National Organic Program for milk so that the agency can promote
      greater confidence that milk labeled as “USDA Organic” meets the standards consumers expect.
σσ    FS agreed to develop strategies to lessen the environmental and economic impact of the changing use of forest roads that were built
      for timber companies but are being converted to residential use.


OIG MISSION
OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These programs encompass
a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.



OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural and
      Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse (Monday–Friday, 9:00 a.m.– 3 p.m. ET)
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the
basis of race, color, national origin, age, disability, and where applicable, sex, marital status, familial status,
parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or part
of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue,
S.W., Washington, D.C. 20250–9410, or call (800) 795–3272 (voice) or (202) 720–6382 (TDD). USDA
